No.
IN THE
SUPREME COURT OF THE UNITED STATES
FRANK CONDEZ,
Petitioner,
v.
TOWN OF DARTMOUTH and others
Respondents,
On Petition for a Writ of Certiorari to the Massachusetts
Appeals Court
PETITION FOR A WRIT OF CERTIORARI

Gregory V. Sullivan, Esq.
Malloy & Sullivan,
Lawyers Professional Corporation
59 Water Street
Hingham, MA 02043
(781)749-4141
g.sullivan@mslpc.net
Counsel for Petitioner
December 11, 2019

QUESTION PRESENTED
Does the Massachusetts Appeals Court decision constitute
a forbidden intrusion of the petitioner’s First Amendment
rights?

i

PARTIES TO THE PROCEEDING AND RULE 29.6
STATEMENT
The Petitioner is Frank Condez. The Massachusetts
Civil Service Commission and the Town of Dartmouth,
Massachusetts are the Respondents. No party is a
corporation.

ii

TABLE OF CONTENTS
QUESTIONS PRESENTED……………………………

Page
i

PARTIES TO THE PROCEEDING
AND RULE 29.6 STATEMENT…………………………

ii

TABLE OF AUTHORITIES………………………………

v

PETITION FOR WRIT OF CERTIORARI………………

1

OPINIONS BELOW………………………………………… 1
JURISDICTION……………………………………………… 1
CONSTITUTIONAL PROVISIONS INVOLVED…………1
STATEMENT OF THE CASE……………………………… 2
REASONS FOR GRANTING THE PETITION…………… 6
CONCLUSION………………………………………………… 9
APPENDIX…………………………………………………… 10
Opinion, Condez v. Civil Service Commission, et al,
No. 18-P-555 (June 6, 2019), 95 Mass. App. Ct. 1116;
126 N.E.3d 1037……………………………………………… 11
Civil Service Commission Decision, Corrected,
Condez v. Town of Dartmouth, No. D-14-192
(October 19, 2015)………………..........................................27
Memorandum of Decision and Order on Cross-Motions
For Judgment on the Pleadings Concerning Decision of the
Civil Service Commision, Condez v. Civil Service
Commission, et al, No. 1673CV00796
(September 25, 2017)……………………………………… 112
iii

Massachusetts Supreme Judicial Court Denial of
Application for Further Appellate Review, Condez v. Civil
Service Commision & others, No. FAR-26915
(September 13, 2019), 483 Mass. 1102 (2019);
2019 Mass. LEXIS 532………………………………………133

iv

TABLE OF AUTHORITIES
Cases

Page

Connick v. Myers, 461 U.S. 138 (1983)………………………6
Crawford-El v. Britton, 523 U.S. 574 (1998)……………… 6
Garcetti v. Ceballos, 547 U.S. 410 (2006)………………… 6
Gertz v. Robert Welch, Inc., 418 U.S. 323 (1974)………… 7
Globe Newspaper Co., v. Superior Court,
457 U.S. 596 (1982)…………………………………………… 8
Hartman v. Moore, 547 U.S. 250 (2006)…………………… 6
New York v. Ferber, 458 U.S. 747 (1982)……………………8
O’Connor v. Steeves, 994 F. 2d 905 (1st Cir. 1993)………… 8
Pereira v. Commission of Soc. Serv., 432 Mass. 251 (2000).8
Pickering v. Bd. of Education, 391 U.S., 563 (1968)……… 6
Prince v. Massachusetts, 321 U.S. 158 (1944)……………….8
Constitution
U.S. Const. Amend.
I………………………………………………........................passim

v

PETITION FOR WRIT OF CERTIORARI
Petitioner, Frank Condez, respectfully petitions for a
writ of certiorari to review the judgment of the
Massachusetts Appeals Court.
OPINIONS BELOW
The opinion of the Massachusetts Appeals Court is
published at 95 Mass. App. Ct. 1116 (2019); 126 N.E.3d
1037 (June 6, 2019). See Petition Appendix, (hereinafter
“Pet. App.”), pp. 11-26. The Massachusetts Supreme
Judicial Court’s denial of the petitioner’s Application for
Further Appellate Review is published at 483 Mass. 1102
(2019); 2019 Mass. LEXIS 532 (Sept. 13, 2019). See Pet.
App., p. 133. The relevant Trial Court Order, Docket No.,
1673CV00796, and the Civil Service Commission Decision,
Docket No. D-14-192 are unpublished. See Pet. App.,
pp.112-132 & pp. 27-111.
JURISDICTION
The Massachusetts Appeals Court issued its opinion
on June 6, 2019. See Pet. App., pp. 11-26. On September
13, 2019, the Massachusetts Supreme Judicial Court denied
the petitioner’s Application for Further Appellate Review.
See Pet. App., pp. 133. This Honorable Court has
jurisdiction under the relevant provisions of 28 U.S.C.
§1257(a).
CONSTITUTIONAL PROVISIONS INVOLVED
The First Amendment of the United States
Constitution states that “Congress shall make no law
respecting an establishment of religion, or prohibiting the
free exercise thereof; or abridging the freedom of speech, or
of the press; or the right of the people peacably to assemble,
and to petition the Government for a redress of grievances.”

1

STATEMENT OF THE CASE
In the underlying action the petitioner, Frank
Condez, (hereinafter “Condez”), asserted that the Town of
Dartmouth, (hereinafter “Town”), unlawfully discharged
him as a police sergeant in direct violation of his rights
guaranteed by First Amendment to the United States
Constitution. Condez specifically asserted that the Town
violated his First Amendment rights when it terminated
him in retaliation for his constitutionally protected opinions
made to the Town’s Select Board in a letter dated June 4,
2014. See Pet. App., pp. 13 &-19.
The following salient facts are undisputed. In 1998,
Condez was hired by the Town as a police officer and
subsequently promoted to the rank of sergeant. On October
1, 2013, the Town placed Condez on administrative leave
for conduct unrelated to the issues on appeal. On June 6,
2014, while on administrative leave, Condez hand-delivered
a letter to the Town’s Select Board, along with two (2)
redacted photographs of a naked male child. Condez’s
letter stated as follows:
Dear Mr. Cressman,
Attached are photos which were
recently discovered when initially
recovered from Timothy Lee’s personal
laptop which was given to me by him to
be serviced for a failing hard drive. The
metadata encoded on these photos tie
them to the same brand and model of
digital camera used to take numerous
other family photos. These are only two
of multiple photos of this nature. There
is also a possibility that some of the
photos were taken out of state. The
photos can, at best, be described as
disturbing. They are more accurately,
2

possible evidence of abuse or sexual
exploitation of a child by him and could
be indicative of serious liability for the
Town should other victims be discovered.
This is being shared with the Selectboard
in their role as Police Commissioners and
based on their duty to supervise the
Chief of Police.
These photos have been provided to
the Selectboard in a redacted form so
they are aware of this serious issue prior
to it coming to them from an outside
source. It is particularly disturbing to
me and I’m sure it will be to the public as
a whole that someone in a position of
public trust would be involved or condone
this type of conduct. I’m sure I don’t
have to explain the severity of something
such as this and the duty of the
Selectboard to investigate something as
serious as this. I will be happy to provide
all of the original evidence to whatever
entity or outside police agency the
Selectboard decides to have investigate
this matter. Given the serious nature of
the issues here I don’t have to go into
great detail as to the consequences for
the Town should other victims be
discovered given that the Town now has
knowledge of the situation. Thank you
for your prompt attention to this matter.
Very Truly Yours,
Frank Condez
One of the pictures enclosed in Condez’s letter depicted a
young male child (not an infant) standing in the bathtub
3

with an orange object hanging off of his penis. The other
picture enclosed in Condez’s letter also depicted a young
male child (not an infant) lying in the bathtub with his
penis clearly exposed. On July 3, 2014, Condez filed a
report with the Massachusetts Department of Children and
Families, (hereinafter “DCF’), after learning that the Town
had not done so after receiving his June 6, 2014, letter.
Condez reported to DCF that he was “concerned about the
pictures and thinks that DCF should investigate.” DCF
ultimately screened out Condez’s report.
On July 28, 2014, the Town sent a Notice of Charges
and Disciplinary Hearing letter to Condez outlining nine (9)
separate charges. The first eight (8) charges were identical
to the charges previously alleged against Condez
concerning the unauthorized downloading of software to the
Town’s police department computers. Charge 9 was new
and related solely to Condez’s June 2014 letter to the
Town’s Select Board. Charge 9 stated as follows:
In his June 5, 2014 submission to the
Town of Dartmouth Select Board,
Sergeant Frank Condez made baseless
accusations of a scurrilous nature against
the Chief of Police Timothy Lee, claiming
that Chief Lee engaged in deviant sexual
criminal behavior with his own child and
suggesting that there were other
‘victims,’ with the additional insinuation
that the matter could become public.
Condez did so with the motive to
embarrass the Chief of Police and impede
Condez’s own disciplinary hearing.
These actions involved immoral,
improper and intemperate conduct,
constituting Conduct Unbecoming an
Officer in violation of the Dartmouth
Police Rules and Regulations.

4

After seven (7) days of evidentiary hearings the
Massachusetts Civil Service Commission, (hereinafter
“Commission”), issued a Corrected Decision finding that the
Town did not prove by a preponderance of the evidence that
Condez engaged in the conduct alleged in Charges 1
through 8; however, the Commission did recommend
Condez’s termination based upon the purported allegations
of misconduct set forth in Charge 9. In so finding the
Commission summarily dismissed Condez’s argument that
his conduct was protected speech under the First
Amendment to the United States Constitution. See Pet.
App., p. 99. Condez timely appealed the Commission’s
decision by filing a Complaint for Judicial Review in the
Massachusetts Trial Court.
Condez and the respondents filed Cross Motions for
Judgment on the Pleadings in the Trial Court. On
September 25, 2017, after a hearing, the Trial Court issued
a Memorandum and Order denying Condez’s Motion for
Judgment on the Pleadings and upholding the
Commission’s decision. In reaching its decision the Trial
Court determined that because Condez was not speaking on
a matter of public concern his conduct was not protected
First Amendment speech. See Pet. App., pp. 119 &120.
Condez timely appealed the Trial Court’s Order.
After oral argument, the Massachusetts Appeals
Court issued a Memorandum and Order, dated June 6,
2019, affirming the judgment against Condez. In it’s
Memorandum and Order the Massachusetts Appeals Court
assumed, without deciding, that Condez was speaking as a
citizen on a matter of public concern but because his
statements were false or made with actual malice the
protections of the First Amendment did not apply. See Pet.
App., pp. 21&23. On July 18, 2019, Condez filed an
Application for Leave to Obtain Further Appellate Review
with the Massachusetts Supreme Judicial Court. The
Massachusetts Supreme Judicial Court denied Condez’s

5

Application for Further Appellate Review on September 13,
2019. See Pet. App. p. 133.
REASONS FOR GRANTING THE PETITION
The penultimate question considered by the
Massachusetts Appeals Court was whether Condez’s
termination was a violation of his rights guaranteed by the
First Amendment to the United States Constitution. This
Court has long held that “[o]fficial reprisal for protected
speech ‘offends the Constitution [because] it threatens to
inhibit exercise of the protected right,’ and the law is
settled that as a general matter the First Amendment
prohibits government officials from subjecting an individual
to retaliatory actions…for speaking out.” Hartman v.
Moore, 547 U.S. 250, 256 (2006)(quoting Crawford-El v.
Britton, 523 U.S. 574, 588 n. 10 (1998)). To determine
whether a public employee’s speech is entitled to First
Amendment protection, a court must consider:
….whether the employee spoke as a
citizen on a matter of public concern. If
the answer is no, the employee has no
First Amendment cause of action based
upon his or her employer’s reaction to the
speech. If the answer is yes, then the
possibility of a First Amendment claim
arises. The question becomes whether
the relevant government entity had an
adequate justification for treating the
employee differently from any other
member of the general public.
Garcetti v. Ceballos, 547 U.S. 410, 418 (2006), citing
Pickering v. Bd. of Education, 391 U.S., 563, 568 (1968),
Connick v. Myers, 461 U.S. 138, 147 (1983). Employing the
three part test outlined above, the Massachusetts Appeals
Court assumed, without deciding, that Condez was a citizen
speaking on a matter of public concern. However, the
6

Massachusetts Appeals Court gravely erred by finding that
Condez’s statements were false because “to the extent it is a
legal question whether the photos are possible evidence of
abuse or sexual exploitation of a child, they are not.” See
Pet. App., p. 23. In so doing, the Massachusetts Appeals
Court impermissibly substituted its own opinion of the
photographs for Condez’s opinion of the photographs.
The Massachusetts Appeals Court decision deviates
from longstanding First Amendment jurisprudence holding
that there is no such thing as a false opinion. The court
committed a clear error of law by failing to rule that
Condez’s statements were protected by the First
Amendment by imputing its own opinion of the
photographs for that of Condez’s. The United States
Supreme Court has long made clear that, “[u]nder the First
Amendment there is no such thing as a false idea. However
pernicious an opinion may seem, we depend for its
correction not on the consciences of judges and juries but on
the competition of other ideas.” Gertz v. Robert Welch, Inc.,
418 U.S. 323, 339-340 (1974). The opinion of the
Massachusetts Appeals Court that “[t]he photos are of the
kind that many parents take of their children, and are not
evidence of sexual abuse or exploitation” cannot be allowed
to supplant Condez’s opinion of what the pictures may or
may not depict. See Pet. App., p. 23. It is axiomatic that
under First Amendment jurisprudence a court’s opinion
cannot supercede or replace the opinion of a citizen.
Consequently, the Massachusetts Appeals Court decision
constitutes a forbidden intrusion of Condez’s First
Amendment rights.
The protection of rights guaranteed by the First
Amendment is of paramount importance. A citizen’s right
to express his or her opinion, particularly regarding a
matter of utmost public concern, is guaranteed by the First
Amendment and is vital to the health of a democratic
government. When a decision implicates the rights
guaranteed by the First Amendment to the United States
7

Constitution reviewing Courts have “…an obligation to
‘make an independent examination of the whole record’ in
order to make sure that the ‘judgment does not constitute a
forbidden intrusion on the field of free speech.’” Pereira v.
Commission of Soc. Serv., 432 Mass. 251, 258
(2000)(quoting O’Connor v. Steeves, 994 F. 2d 905, 912-913
(1st Cir. 1993). This case involves speech on matters of the
highest public concern – the health and welfare of children.
Arguably, there is no greater matter of public concern than
the health and welfare of our children. “[B]asic in a
democracy, stand the interests of society to protect the
welfare of children…”. Prince v. Massachusetts, 321 U.S.
158, 165 (1944). “It is evident beyond the need for
elaboration that a State’s interest in ‘safeguarding the
physical and psychological well-being of a minor’ is
‘compelling’.” New York v. Ferber, 458 U.S. 747, 756-757
(1982)(quoting Globe Newspaper Co., v. Superior Court,
457 U.S. 596, 607 (1982). “A democratic society rests, for
its continuance, upon the healthy, well-rounded growth of
young people into full maturity as citizens.” Prince v.
Massachusetts, 321 U.S. at 168. Given these exceptionally
important constitutional rights and societal interests there
is a clear and compelling reason for this Honorable Court to
grant this petition for a writ of certiorari. Allowing the
Massachusetts Appeals Court decision to stand would have
a significant chilling effect on the rights of citizens
guaranteed by the First Amendment and would
contemporaneously negatively impact society’s paramount
interest in protecting the health and welfare of children.

8

CONCLUSION
For the foregoing reasons this Honorable Court
should grant the petition for a writ of certiorari.
Respectfully submitted,
Gregory V. Sullivan, Esq.
Malloy & Sullivan,
Lawyers Professional Corporation
59 Water Street
Hingham, MA 02043
(781)749-4141
g.sullivan@mslpc.net
Counsel for Petitioner
December 11, 2019

9

APPENDIX
Opinion, Condez v. Civil Service Commission, et al,
No. 18-P-555 (June 6, 2019), 95 Mass. App. Ct. 1116;
126 N.E.3d 1037………………………………………………….11
Civil Service Commission Decision, Corrected,
Condez v. Town of Dartmouth, No. D-14-192
(October 19, 2015)……………….............................................27
Memorandum of Decision and Order on Cross-Motions
For Judgment on the Pleadings Concerning Decision of the
Civil Service Commision, Condez v. Civil Service
Commission, et al, No. 1673CV00796
(September 25, 2017)………………………………………… 112
Massachusetts Supreme Judicial Court Denial of
Application for Further Appellate Review, Condez v. Civil
Service Commision & others, No. FAR-26915
(September 13, 2019),
483 Mass. 1102 (2019); 2019 Mass. LEXIS 532……………133

10

NOTICE: Summary decisions issued by the Appeals
Court pursuant to its rule 1:28, as amended by 73 Mass.
App. Ct. 1001 (2009), are primarily directed to the parties
and, therefore, may not fully address the facts of the case
or the panel's decisional rationale. Moreover, such
decisions are not circulated to the entire court and,
therefore, represent only the views of the panel that
decided the case. A summary decision pursuant to rule
1:28 issued after February 25, 2008, may be cited for its
persuasive value but, because of the limitations noted
above, not as binding precedent. See Chace v. Curran, 71
Mass. App. Ct. 258, 260 n.4 (2008).
COMMONWEALTH OF MASSACHUSETTS
APPEALS COURT
18-P-555
FRANK CONDEZ
vs.
CIVIL SERVICE COMMISSION & another1 (and a
companioncase2).
MEMORANDUM AND ORDER PURSUANT TO RULE
1:28
The plaintiff, a sergeant of the
Dartmouth Police Department
(department), was disciplined for sending a
letter to the select board of the town of
Dartmouth (board) accusing the town's
police chief of possible sexual exploitation
of a child. The parties agreed to hold a
hearing before an officer of the Civil Service
Commission (commission) under G. L. c. 31,
§ 41A. The hearing officer found that the
allegations were false and baseless, and
11

concluded that the letter constituted
conduct unbecoming a police officer and
provided just cause for termination. The
hearing officer also concluded that the letter
was neither protected speech under the
First Amendment to the United States
Constitution nor a protected mandated
report under
1 Town ofDartmouth.
2 Frank Condez vs. Leonard H. Kesten & Town ofDartmouth.

12

G. L. c. 119, § 51A (h). The commission adopted the hearing
officer's decision.
The plaintiff then filed two complaints in
Superior Court. The first was an action under G. L.
c. 30A, § 14, appealing the decision of the
commission, in which the town of Dartmouth (town)
also appeared as a defendant. The second was a
complaint alleging unlawful retaliation under G. L.
c. 119, § 51A (h), in which the defendants were the
town and Attorney Leonard Kesten, who
represented the town in the disciplinary
proceedings. A judge of the Superior Court affirmed
the decision of the commission in the c. 30A action,
and granted summary judgment in favor of the
defendants in the unlawful retaliation action.
Condez appealed from both judgments, and the
appeals were consolidated in this court.
Before us, the plaintiff argues that the First
Amendment prohibits his termination because it
was in retaliation for the exercise of his right to
free speech. He argues in the alternative that he
made his statements in the letter in good faith as
a mandatory reporter, and that the town
unlawfully retaliated against him under G. L. c.
119, § 51A (h). We affirm.
Background. The following facts are taken
from the decision of the commission that forms the
basis of this appeal. The commission's subsidiary
factual findings are undisputed.

13

The plaintiff, Frank Condez, began his
employment with the department in 1998 and was
promoted to sergeant in 2010. In 2000, he began to
operate a small computer repair business on the
side, which was approved by the department.
In 2011, the wife of Timothy Lee, the
department's chief, damaged her laptop computer
and was unable to access many files on it, including
a large number of family photos. Lee brought the
laptop to Condez and asked him to recover the files
as part of the side business. Condez agreed. He
performed all his work on the laptop while off duty,
and Lee paid him like any other customer.
Eventually, Condez was able to recover some of the
files through a process called "cloning," using a
device known as a "scratch drive" to temporarily
retain the files. He purchased a new hard drive for
the laptop, transferred the data onto the hard drive,
and installed it in the laptop. He then returned the
refurbished computer to Lee along with the old,
damaged hard drive. He also gave Lee a thumb
drive containing the data he had recovered
However, without telling Lee, he kept the scratch
drive, which contained a copy of the data he had
been able to recover from the hard drive. He later
claimed that it was his normal practice to
eventually wipe and reuse scratch drives for future
projects.
For several years, Condez also performed
some information technology (IT) work for the
department, and was involved in

14

upgrading the department computers' hardware,
software, and operating systems. Starting in March
of 2013, some department computers began
experiencing problems, and the department's IT
director came to suspect that Condez had
committed various types of misconduct, the nature
of which is not relevant here, regarding the
computer upgrades. Condez was placed on paid
administrative leave on October 1, 2013.
A
subsequent internal investigation by the
department concluded, on February 6, 2014, that
Condez had committed misconduct regarding the
upgrades.
In addition, on the day Condez was placed on
administrative leave, but before he was so notified,
he lodged a complaint that his department locker
was entered and his department-issued firearm was
missing. He was ordered to take a polygraph test on
this issue, administered by a civilian, on October
20, 2013. That day, he entered the police station
holding an application for a temporary restraining
order to prevent the polygraph test. According to the
commission, he believed in good faith that,
according to law, polygraph tests could only be
administered by police officers. Eventually, Lee told
him that he would be fired if he did not take the
polygraph test, and Condez complied.
The department leveled charges of
misconduct against Condez related to the computer
and polygraph incidents, and a hearing was
scheduled before the appointing authority for April
17, 2014. See G. L. c. 31, § 41. On April 3, 2014,
Condez's recently-retained attorney sought a
continuance of the hearing, and the parties agreed
on a new hearing date of June 9, 2014. On June 4
and 5, 2014, Condez, through his attorney, sought
another continuance until July 1, 2014 or later due
to a family medical situation. Counsel for the town
15

responded that he was only willing to continue the
hearing until June 17. The hearing, though, never
took place.
On June 6, 2014, the day after town counsel
rejected his proposed continuance, Condez handdelivered a letter to the town administrator,
addressed to the board.
The letter, which was not on department
letterhead, read as follows:
"Attached are the photos which were recently
discovered when initially recovered from
Timothy Lee's personal laptop which was
given to me by him to be serviced for a failing
hard drive. The metadata encoded in these
photos tie them to the same brand and model
of digital camera used to take numerous
other family photos. These are only two of
multiple photos of this nature. There is also
a possibility that some of the photos were
taken out of state. The photos can, at best, be
described as disturbing. They are more
accurately, possible evidence of abuse or
sexual exploitation of a child by him and
could be indicative of serious liability for the
Town should other victims be discovered.This
is being shared with the Select Board in their
role as Police Commissioners and based on
their duty to supervise the Chief of Police.
"These photos have been provided to the
Select Board in a redacted form so they are
aware of this serious issue prior to it coming
to them from an outside source. It is
particularly disturbing to me and I'm sure it
will be to the public as a whole that someone
in a position of public trust would be involved
16

and or condone this type of conduct. I'm sure
I don't have to explain the severity of
something such as this and the duty of the
Select Board to investigate something as
serious as this. I will be happy to provide all
of the original evidence to whatever entity or
outside police agency the Select Board
decides to have investigate this matter. Given
the serious nature of the issues here I don't
have to go into great detail as to the
consequences for the Town should other
victims be discovered given that the Town
now has knowledge of the situation. Thank
you for your prompt attention to this matter.
"Very Truly Yours,
"Frank Condez"
The first photo, which we shall refer to as
Photo 1, is of a small child lying face up in a
bathtub, smiling, surrounded by bath toys. The
second photo, Photo 2, is of the same child, though
apparently older, standing in a bathtub with his
hands behind his back, with a square, apparently
flat orange object with an image on it stuck to his
body and covering his genitals. It is not clear from
the picture exactly what the object is or exactly how
it is adhered to the child's body. It appears that the
object may be a bath toy or a piece of laminated
paper and that it may be sticking to the child's body
because he is wet. The image on the square object
appears to be a pineapple. The photos are of Lee's
son. Condez eventually claimed that he only first
discovered them in May of 2014 when he was
wiping scratch drives for reuse.
Lee was immediately informed of the
letter, and that same day contacted the New
17

Bedford office of the Bristol County district
attorney, and demanded to be investigated.
The district attorney's office and the town
conducted an investigation into the matter. Lee
and his wife cooperated fully with the
investigation, were interviewed without
representation, and provided the thumb drive
Condez had given them in 2011 as well as a CD
copy of its contents.
(They had thrown away
the laptop in 2013 because it stopped working.)
Subsequent examination of these materials
revealed that the photos were in different subsubfolders of a subfolder named "Pictures" of a
folder named "Documents The Photo 1 subsubfolder contained 252 separate images.
Photo 1 was one of a sequence of photos of a
child playing in a bathtub, all clearly taken at
one time. Photo 2 was in a sub-subfolder with 138
separate photos and was the only one of its kind.
On July 3, 2014, Condez walked into the
Taunton office of the Department of Children and
Families (DCF) and made a formal report under G.
L. c. 119, § 51A. The report indicated that Condez
was a "mandated reporter" and alleged neglect of
Lee's son. The report stated, among other things,
that the "[r]eporter said that he was asked by
child's father to do some work on his personal
laptop computer to retrieve some lost files. While
working on the computer, the reporter came across
family photos." On July 11, 2014, DCF screened
out the report.
Later, on July 23, 2014, the investigator
from the district attorney's office knocked on the
door of Condez's home and asked to speak with
him. Condez was not home, and his mother, with
whom he lived, took the investigaor's business
card and contact information. The next day,
Condez made a DVD copy of the files on the
18

scratch drive and "forensically wiped" the scratch
drive, leaving no recoverable data or metadata on
it. The lost metadata would have included when
the files were accessed, which could have
corroborated or contradicted Condez's explanation
of when he first discovered them. Condez claimed
that he forensically wiped the scratch drive
because he did not want to be in possession of
contraband.
While the department's charges against
Condez on the computer and polygraph incidents
were still outstanding, it added a final charge of
conduct unbecoming a police officer based on
Condez's letter to the board. The parties agreed to
a hearing before the commission pursuant to G. L.
c. 31, § 41A, which found no misconduct with
respect to the computer and polygraph incidents,
but found that Condez's delivery of the letter to
the board constituted conduct unbecoming a police
officer, because "Condez [made] false accusations
amounting to charges that Chief Lee had
committed a felony, i.e.[,] child abuse, either
knowing them to be false or with reckless
disregard." The commission determined that
Condez's termination was warranted.
Discussion.
Before us, Condez argues that his letter was
speech protected by the First Amendment or, alternatively, G. L.
C. 119, § 51A, and that it cannot form the basis for his discharge.
Subject to an exception discussed below, we are "bound to accept
the findings of fact of the commission's hearing officer, if
supported by substantial evidence." Leominster v. Stratton, 58
Mass. App. Ct. 726, 729 (2003). We address these arguments in
turn.3

19

1. The First Amendment. The First Amendment limits
the government's authority to restrict and punish
public employees' speech. In evaluating a claim that
a public employer's disciplinary action was
impermissibly made in retaliation for engaging in
speech protected by the First Amendment, we
employ
3 The Superior Court judge granted summary judgment to the

defendants in the unlawful retaliation action not on the
merits, but because the commission's decision, which the
judge had affirmed, barred on collateral estoppel grounds the
unlawful retaliation claim.
The judge also concluded that
Condez's claim against Kesten failed because Kesten was not
Condez's employer, and hence could not be liable under G. L.
c. 119, § 51A (h). Condez does not challenge either conclusion
on appeal, and instead states that the issues in both cases are
"nearly identical." He has thus waived any objection to the
judge's grant of summary judgment in favor of the defendants.
Even were these arguments not waived,
we agree with Condez that the issues in the unlawful
retaliation action are essentially identical to the issues in the
appeal from the commission's decision.
Because we conclude that the judge was correct in affirming
the commission's decision, judgment for the defendants in
the retaliation action would also be appropriate on the
merits.

20

the framework first articulated in Pickering v. Board of
Educ., 391 U.S. 563 (1968), and later refined in Connick v.
Myers, 461 U.S. 138 (1983), and Garcetti v. Ceballos, 547
U.S. 410 (2006). See Pereira v. Commissioner of Social
Servs., 432 Mass. 251, 256-257 (2000). We proceed in two
broad steps:
"The first requires determining whether the
employee spoke as a citizen on a matter of
public concern. . . . If the answer is no, the
employee has no First Amendment cause of
action based on his or her employer's
reaction to the speech. . . . If the answer is
yes, then the possibility of a First
Amendment claim arises. The question
becomes whether the relevant government
entity had an adequate justification for
treating the employee differently from any
other member of the general public."
Garcetti, supra at 418. The second step, known as
Pickering balancing, requires us to "balance . . . the
interests of the [employee], as a citizen, in
commenting upon matters of public concern and the
interest of the State, as an employer, in promoting
the efficiency of the public services it performs
through its employees." Pickering, supra at 568. The
protected status of speech is a question of law for
the court, not a question of fact for the agency. See
Connick, supra at 148 n.7.
a.

Citizen speech and speech on a matter of public

concern. We will begin by assuming without
deciding that the speech in the letter was made by
Condez as a citizen, rather than as a public
employee, and that it was on a matter of public
concern. Whether this was citizen speech is highly
21

context- dependent, see Cristo v. Evangelidis, 90
Mass. App. Ct. 585, 592 (2016), and vigorously
contested by the parties. We will assume that it
was. "Whether an employee's speech addresses a
matter of public concern must be determined by the
content, form, and context of a given statement, as
revealed by the whole record." Connick, 461 U.S. at
147-148. See Pereira, 432 Mass. at 257. There is at
least strength to Condez's argument that the subject
matter of the speech at issue -- a police chief's
alleged sexual exploitation of a child -- can be "fairly
considered as relating to any matter of political,
social, or other concern to the community." Connick,
supra at 146. So likewise, we will assume
without deciding that it was on a matter of public
concern. The fact finder found that it was made by
Condez to a third party, it could damage Lee's
reputation, it was made with knowledge of its
falsity or reckless disregard for its truth, and it
accused Lee of a crime, see Ravnikar v.
Bogojavlensky, 438 Mass. 627, 628-630 (2003)
(describing elements of defamation). We will also
assume, however, without deciding that a
statement that is actionable as false and
defamatory under New York Times Co. v.
Sullivan, 376 U.S. 254 (1964), may nonetheless be speech on
a matter of public concern.
Allowing the government to
discharge an employee for uttering a defamatory falsehood
might create a chilling effect on protected speech that has an
insufficiently weighty social benefit if the defamatory
falsehood is not harmful to the government, even though it
is sufficiently harmful to a private individual that the First
Amendment poses no bar to recovery by that individual in a
civil action. To the extent Condez's statement was made
with knowledge of its falsity or with reckless disregard for
its truth, we therefore consider that in the next step of our
analysis.

22

b. Pickering balancing. Condez wrote that
the two photos were "possible evidence of abuse or
sexual exploitation of a child." This statement was
found to be false, and this finding was supported by
substantial evidence for the reasons that follow;
indeed, to the extent it is a legal question whether
the photos are possible evidence of abuse or sexual
exploitation of a child, they are not. They are two
out of hundreds of photos taken of this child on this
hard drive that Condez, in choosing them,
necessarily saw. It would be clear to anyone viewing
the photos that they were of the child of the owner
of the laptop. None of the photos on the hard drive
depict anything that indicates sexual abuse or
exploitation of the child. In all the bath photos
except Photo 2, in which the child is standing, the
child is sitting or lying in a bathtub full of water,
surrounded by bath toys. Although his genitals are
exposed in some of the photos, there is no indication
that his genitals were manipulated or focused on.
The photos are of the kind that many parents take
of their small children, and are not evidence of
sexual abuse or sexual exploitation. No other photos
of the child on the hard drive show him in a state of
undress or in any way that might possibly be
described as sexual or sexualized.
Further, the commission found that Condez
made the statement with knowledge of its falsity or
reckless disregard of its truth. "Because First
Amendment values are at stake," we must make an
"independent examination" of the commission's
findings on the issue of recklessness or
knowingness. Murphy v. Boston Herald, Inc., 449
Mass. 42, 49 (2007). "Although the independent
examination is not 'de novo' in the literal sense,
. . . core First Amendment values require a
searching reassessment . . . ." Id. at 50."[A] finding
23

of 'reckless disregard' requires proof, not of mere
negligence, but that the author 'in fact entertained
serious doubts as to the truth of his
publication.'"Id. at 48, quoting St. Amant v.
Thompson, 390 U.S. 727, 730-731 (1968). "That
information was available which would cause a
reasonably prudent man to entertain serious
doubts is not sufficient. In order to [find
recklessness, the fact finder must] find that such
doubts were in fact entertained by the [individual]
. . . .The [fact finder] may, of course, reach this
conclusion on the basis of an inference drawn from
objective evidence . . . ."Stone v. Essex County
Newspapers, Inc., 367 Mass. 849, 867-868
(1975).Unlike the test for recklessness in the
criminal law, the First Amendment recklessness
test is "entirely subjective." King v. Globe
Newspaper Co., 400 Mass. 705, 719 (1987), cert.
denied, 485 U.S. 940, and 485 U.S. 962 (1988).
It might be the case, and we need not decide,
that an individual who viewed Photo 2 could believe,
with a mental state less culpable than recklessness,
that it was possible evidence of sexual abuse or
exploitation of a child. It is a stand-alone photo, and
an object whose nature is difficult to discern has
adhered to the child's body covering his groin area. If
Condez actually thought this was evidence of sexual
abuse or exploitation, even if he was negligently
wrong, of course, his statements would be protected.
The contents of his letter, however, demonstrated
that Condez in fact understood both pictures to be
nothing more than innocent bath photos. The letter
stated that the attached photos were "only two of
multiple photos of this nature." This statement
implied, given what our independent examination of
the record reveals as the obvious innocence of the
other photos, that Condez subjectively understood
24

that Photo 2 was nothing more than the innocent
bath photo it is. That he then wrote otherwise is
objective evidence that he knew his accusations were
false, or, at the least, entertained serious doubts
about their truth. We therefore conclude, based on
our independent review of the record, that, as a
matter of law, Condez's false and defamatory
statements were made with at least reckless
disregard for their truth, if not knowledge of their
falsity, and that his interests in making the
statements were minimal.
By contrast, the efficiency of the
government's operations was significantly
hampered by Condez's statements. Condez's letter
delayed his hearing on the computer and polygraph
incidents. Moreover, Condez's false and
inflammatory letter caused several unnecessary
investigations into Lee, resulting in the needless
expenditure of resources and the distraction of Lee
and other town personnel from their normal duties.
And the government, of course, has a strong
interest in protecting the integrity of its law
enforcement officers against baseless accusations
that they are menaces to society. We therefore
conclude that the Pickering balancing favors the
town, and that the First Amendment does not bar
Condez's discharge on the basis of this letter.
2. General Laws c. 119, § 51A. Condez also argues that his
statement was protected by G. L. c. 119, § 51A (h), which
provides, "No employer shall discharge, discriminate or
retaliate against a mandated reporter who, in good faith, files
a report under this section, testifies or is about to testify in
any proceeding involving child abuse or neglect." But the
letter was not a report under § 51A. It was not filed with DCF
as required by the statute. Condez argues that this was a
report filed pursuant to G. L. c. 119, § 51 (a), which provides,

25

"If a mandated reporter is a member of the
staff of a medical or other public or private
institution, school or facility, the mandated
reporter may instead notify the person or
designated agent in charge of such
institution, school or facility who shall
become responsible for notifying the
department in the manner required by this
section."
Passing on whether the police department is a
"public . . . institution . . . or facility" within the
meaning of the statute, we see no error in the
commission's conclusion that the letter was not a
report filed in good faith under the statute.
Condez filed a direct report with DCF about the
photos less than thirty days after his letter to the
board. If Condez sent the letter in the good faith
belief that he was filing a report in fulfillment of his
duty under the statute, there would have been no
need for him to make a second, direct report to DCF.
The commission's conclusion that this was not a
report filed in good faith by Condez is therefore
supported by substantial evidence.
Conclusion.
In civil action no. BRCV201400836, the judgment is affirmed. In civil action no.
1673CV00796, the judgment is also affirmed.
So ordered.
By the Court (Rubin,
Sullivan & Neyman, JJ.4),

Clerk
Entered:

June 6, 2019.

4 The panelists are listed in order ofseniority.

26

COMMONWEALTH OF MASSACHUSETTS
SUFFOLK, SS.

CIVIL SERVICE COMMISSION
One Ashburton Place - Room 503
Boston, MA 02108
(617) 727-2293

FRANK CONDEZ,
Appellant
v.
TOWN OF DARTMOUTH,
Respondent

Docket No.: D-14-192

Appearance for Appellant:

Jack J. Canzoneri, Esq.
Dennis M. Coyne, Esq.
McDonald Lamond
Canzoneri
352 Turnpike Road,
Suite 310
Southborough,
Massachusetts 01772

Appearance for Respondent:

Leonard H. Kesten, Esq.
Evan C. Ouellette, Esq.
Brody, Hardoon, Perkins &
Kesten, LLP
699 Boylston Street
Boston, MA 02116

Commissioner:

Paul M. Stein1

DECISION (Corrected 10/19/2015)
The Appellant, Frank Condez, filed this appeal with the
Civil Service Commission (Commission) on August 6, 2014,
alleging he had been unlawfully suspended by the
Respondent, the Town of Dartmouth (Dartmouth) from the
position of Sergeant with the Dartmouth Police
Department (DPD). At the pre-hearing conference held by
the Commission on September 12, 2014, the parties
27

stipulated that Sgt. Condez had not been suspended but
had been placed on paid administrative leave on October
1, 2013, that no appointing authority hearing had been
held, that no disciplinary action had been taken against
him within the meaning of G.L.c.31,§41, and that the
notice of “suspension for cause” Dartmouth issued had
been sent in error. Dartmouth moved to dismiss the appeal
as premature. By “Joint Motion to Amend Appeal
1 The Commission acknowledges the assistance of Michael Chin, Esq.,

in drafting this Decision.

28

and to Hold G.L.c.31,§41A Hearing” dated October 14,
2014, the parties then agreed to dispense with the
appointing authority hearing and submit the dispute
to a disinterested hearing officer designated by the
Chairman of the Commission pursuant to
G.L.c.31,§41A. I was designated to conduct the Section
41A hearing2 and to make findings of fact and
recommendations to the Commission as to a final and
binding decision on the charges proffered in
Dartmouth’s letter (the Charge Letter) dated July 28,
2014, entitled "Notice of Charging & Disciplinary
Hearing Pursuant to G.L.c.31,§41”. (Exh. 2)
Evidentiary hearings were held at the UMass
School of Law in Dartmouth MA over seven days
(November 18, 2014; November 20, 2014; December
12, 2014; December 19, 2014;
January 5, 2015; January 29, 2015; and February 23,
2015). The witnesses were sequestered. The hearing
was declared private as no party requested a public
hearing. The hearing was digitally recorded.3 Fortyseven (47) exhibits were received in evidence at the
hearing. The record remained open and the Appellant
submitted sur-rebuttal evidence on February 26,
2015. The Respondent submitted its response to
Appellant’s sur-rebuttal on March 12, 2015. These
post- hearing submissions were marked P.H. Exh. 48.
The evidentiary record closed on March 18, 2015. Both
parties submitted post-hearing proposed decisions on
May 11, 2015.4
2 The hearings were conducted pursuant to the Standard Rules
of Adjudicatory Procedure, 801 C.M.R. 1.01 (Formal Rules)
adopted by the Commission.
3 On its own initiative, Dartmouth arranged for a stenographic
transcript (the “Dartmouth Transcript”) to be made from the
digital recording, which it supplied to the Commission and the
Appellant’s counsel with the filing of its proposed decision. The

29

Commission treats the Dartmouth Transcript as an addendum
to Dartmouth’s Proposed Decision and Post-Hearing Brief. The
official record of the proceedings is the digital recording. If there
is a judicial appeal of this decision the plaintiff in the judicial
appeal would be obligated to supply the court with a transcript
of this hearing to the extent that person wishes to challenge the
decision as unsupported by the substantial evidence, arbitrary
and capricious, or an abuse of discretion. In such cases, this CD
should be used by the plaintiff in the judicial appeal as the official
record from which to transcribe the recording into a written
transcript. The Commission neither approves nor precludes
either party from employing the Dartmouth Transcript for that
purpose.
4 The Appellant objected to Dartmouth’s supplemented posthearing brief on the grounds that it exceeded the scope of
technical changes for which leave was granted. The objections
are overruled as I find the changes were reasonably appropriate
and were not prejudicial to my consideration of the Appellant’s
claims.

30

FINDINGS OF FACT
Based upon the documents entered into
evidence, the stipulation of the parties, the
testimony of:
Called by Respondent:
• DPD Chief Timothy Lee, Chief, DPD
• Mrs. Lee [Chief Lee’s spouse]
• DPD IT Director, Anthony Souza
• Alfred Donovan, President, APD Management,
Inc.
• Kenneth Bell, Cyber Engineer, Raytheon Co.
• Robert Pomeroy, Esq., Pomeroy Resources, Inc.
• MSP Trooper Daniel Giossi
• MSP Trooper Hollis Crowley
Called by the Appellant:
• DPD Sergeant Frank Condez, Appellant
• DPD Sergeant Scott Lake
and taking administrative notice of all matters filed in
the case and pertinent statutes, regulations and case
law, and drawing reasonable inferences from the
evidence I find credible, I make the following findings
of fact:
Background
1.

2.

The Appellant, Frank Condez, is
employed as a Sergeant by the DPD. He
began his employment with the DPD as a
patrol officer in 1998 when he took the
Civil Service Examination and entered
into the police academy. (Testimony of
Condez)
Sgt. Condez is a member of the Dartmouth
Police Brotherhood (Union). He has served as
the Union’s president since April 2011.
(Testimony of Condez)
31

3.
4.

Sgt. Condez has been on paid administrative
leave as of October 1, 2013. (Testimony of
Condez)
Timothy Lee was appointed DPD Chief
effective March 23, 2010. He previously
served with the Police Department of the
City of Providence, RI, where he was
promoted to Lieutenant in 2000 and Captain
in 2009. (Testimony of Chief Lee)

32

5.

6.

7.

8.

9.

10.

The DPD has approximately 65 sworn
officers. David Cressman is the Dartmouth
Town Administrator and the Dartmouth
Select Board is the DPD Appointing
Authority. (Testimony of Chief Lee)
Prior to Chief Lee’s hire by the DPD, Mark
Pacheco served as DPD Police Chief until
2009. Deputy Chief Gary Soares served as
acting DPD Chief of the DPD from 2009 to
March 2010 and remained as Deputy Chief
until he retired. (Testimony of Chief Lee).
Prior to Chief Lee joining the DPD, the
Appellant, then a patrol officer, had taken a
Civil Service Exam for promotion to sergeant.
When Chief Lee joined the DPD, (then)
Officer Condez was first on the promotional
list and was engaged in litigation with
Dartmouth regarding his promotion. (Exh.4;
Testimony of Chief Lee)
Chief Lee believed that DPD officers deserved
a “fresh start” with him as Chief. In April
2010, he approved Officer Condez’s promotion
to Sergeant. (Testimony of Chief Lee)
On or about October 15, 2010, Sgt. Condez
reached an agreement with Dartmouth to
resolve the litigation which included a
Consent Order establishing the agreed terms
of his seniority as Sergeant. (Exh. 4;
Testimony of Chief Lee)
Sgt. Condez, Chief Lee, Deputy Chief Soares
and Town Administrator Cressman all had
the understanding that their settlement was
intended to, and did grant, Sgt. Condez full
(both Union and civil service) retroactive
seniority status as a sergeant going back to
2004. (Exh. 4; Testimony of Chief Lee &
Condez)

33

11.

12.

13.

14.
15.

Sergeants bid annually in the month of
January for their shift assignments, to take
effect the following March. (Exhs. 4, 40ID;
Testimony of Chief Lee)
In January 2011, when the bid list for that
year was posted, Sgt. Condez was listed junior
to other sergeants (who had been promoted
before him but after his negotiated retroactive
seniority date pursuant to the Consent Order)
and whom he believed should be junior to him
pursuant to that agreement). Sgt. Condez
protested the discrepancy but, as his first
choice of shift assignment was open (the 8:00
a.m. to 4:00 pm “day shift” he had worked
since July 2010) his 2011 choice of assignment
was not affected. Sgt. Condez remained on the
8:00 a.m. to 4:00 p.m. “day shift”. (Exh. 4;
Testimony of Condez)
In January 2012, the bid posting had moved
Sgt. Condez above the others who had been
ahead of him the year before. This prompted
the Union to file a grievance questioning
whether or not Sgt. Condez should receive
such retroactive seniority for collective
bargaining purposes, such as shift bidding.
(Exh. 4; Testimony of Chief Lee)
Chief Lee heard the Union’s grievance and
denied it, siding with Sgt. Condez. (Exh. 4;
Testimony of Chief Lee)
The Union appealed Chief Lee’s decision to
the Dartmouth Select Board. On March 12,
2012, the Select Board overturned Chief
Lee’s decision and sided with the Union,
deciding that the seniority granted by the
Consent Order was meant to be limited to
civil service rights, but not collective
bargaining rights, thus, denying Sgt.
Condez’s retroactive seniority clam for shift
34

16.
17.

18.

19.

20.

21.

bidding purposes. (Exh. 4; Testimony of Chief
Lee)
Chief Lee believed that Sgt. Condez “got
screwed” by the decision of the Dartmouth
Select Board. (Testimony of Chief Lee)
On March 19, 2012, Sgt. Condez challenged
the Dartmouth Select Bard’s seniority
determination through a contempt action in
Superior Court, seeking enforcement of his
right to retroactive Union seniority. (Exh. 4;
Testimony of Chief Lee)
In July 2012, Sgt. Condez moved from the
“day shift” to the 4:00 p.m. to 12 midnight
“evening shift”, which he worked through
February 2013. (Testimony of Condez)
When the 2013 shift bids were posted, Sgt.
Condez was listed according to the March
2012 decision of the Select Board, i.e.,
junior to the sergeants whom he believed
he would outrank based on his retroactive
seniority date. (Testimony of Condez)
On Friday, March 1, 2013, Sgt. Condez
began working the 12:00 a.m. to 8:00 a.m.
“midnight shift”. He also worked the midnight
shift on Saturday, March 2, had days off on
March 3 through 5, and next again worked on
March 6, 2013. He continued on that shift until
July 2013. (Testimony of Chief Lee & Condez)

On March 19, 2013, the Superior Court
held a jury-waived trial of Sgt. Condez’s
contempt action. By decision dated April
9, 2013, the Superior Court dismissed the
action, holding: “While it is clear that the
Town agreed to grant Condez retroactive
seniority for promotional purposes it is
unclear whether it intended to do so for
purposes of shift assignments. As the Order

35

is not clear, a finding of contempt is not
warranted.” (Exh. 4)
22.
In July 2013, Sgt. Condez moved back to the
“day shift” where he remained until placed on
administrative leave in October 2013.
(Testimony of Chief Lee & Condez)
The 2010 Computer Upgrade
23.

24.

25.

Sgt. Condez has run a small computer repair
business out of the basement of his home
since 2000. He submitted, and the DPD
approved, the required disclosure application
to engage in this outside secondary
employment. (Testimony of Chief Lee &
Condez)
Sgt. Condez has no formal computer
training but has had an interest in
computers since he was a youth. (Exhibit 34;
Testimony of Condez)
Sgt. Condez briefly provided IT support to
the DPD under Chief Pacheco. (Exhibit 34;
Testimony of Condez)

36

26.

27.

28.

29.

Antone (“Tony”) Souza has been the DPD’s
IT Director since his hire in 2007 by Chief
Pacheco. Previously, he was the General
Manager for Universal Electronics, a radio
equipment business. He has no formal
computer training and is self-taught. (Exh. 9
[Souza Interview]; Testimony of Souza).
Mr. Souza is responsible for management of
DPD’s computer and communications
systems, which includes the radios, and a
computer network of approximately thirty
“generic” desktop workstations, as well as
laptops in the DPD cruisers. He is responsible
for the annual IT budget, which is about
$30,000 to $40,000. He is the DPD computer
“administrator”, and is only one of two DPD
personnel who knew the code (password)
needed to access the network. Sgt. Condez
never had administrative access or knew the
administrative pass code. (Exh. 9 [Souza
Interview]; Testimony of Chief Lee & Sousa)
Administrative rights are elevated access to a
computer or computer network. Typically it is
given to a person setting up a computer or
making changes to the network or a specific
computer such as changing administrative
settings such as enabling and disabling
updates. Rank and file officers, such as Sgt.
Condez, did not have this administrative
“elevated” access and did not know the
administrative password. (Exh. 9
[Souza Interview]; Testimony of Chief
Lee, Sousa, Lake, Bell & Condez).
Prior to 2010, the computer system used
Microsoft Windows XP operating system and
Office 2003, along with computerized
records management (RMS), computer-

37

30.

31.

32.

33.

assisted dispatch (CAD) and e-mail (IMC)
software. (Testimony of Souza)
When Chief Lee arrived at the DPD, he made
it known that he was concerned that the DPD
computer system was outdated, in large part
because it used Windows XP instead of the
newer operating system Windows 7 and the
older, outdated version of Microsoft Office.
(Testimony of Chief Lee)
Prior to Chief Lee’s arrival in March 2010,
Mr. Souza had started purchasing the
hardware needed to upgrade the DPD’s
computer system. He had been
experimenting with what he referred to as
a “beta” version of Windows 7 that he had
installed on one machine he had
constructed so that he could test its
compatibility with DPD’s other systems.
(Testimony of Condez & Sousa)
Sometime over the summer of 2010, Deputy
Chief Soares’s computer (the Soares
Computer) “died”. At first, Mr. Souza intended
to “put it all back” the way it was [which I
infer to mean “reinstalling” Windows XP and
Windows 2003] when “they told me to work
with Condez” because “he has Windows 7”.
(Exh. 9[Souza & Condez Interviews];
Testimony of Condez)
It had become known to Chief Lee that
Sgt. Condez had experience working with
computers and, in furtherance of his
“fresh start” policy to develop a better
working relationship with Sgt. Condez
going forward, Chief Lee asked Sgt.
Condez to get involved in the computer
upgrade. Chief Lee emphasized that
there was “plenty of money” in the
38

budget and he wanted to see the Soares
Computer and all other DPD
computers upgraded as quickly as possible.
(Testimony of Chief Lee, Souza & Condez)5
34.

The evidence does not precisely narrow down
when Mr. Souza started experimenting with
his “beta” Windows 7 upgrade, when the
Soares Computer “died”, or what software was
loaded on it at that point. Date(s) imbedded in
the Soares Computer indicate that both
Windows 7 and Microsoft Office 2007 were
installed on June 5, 2010, but other evidence
established that those dates may or may not
be accurate and could be off by

5 Mr. Sousa mostly recalled exchanges with Deputy Soares, not
Chief Lee, but I do not credit this testimony, which is
inconsistent with the recollections of both Chief Lee and Sgt.
Condez. (Testimony of Chief Lee, Condez & Souza)

39

35.

36.

37.

38.

days, weeks, or even months. (Exh. 9 [
Bell Report]; Exh. 12; Testimony of
Condez, Sousa & Bell)6
Sgt. Condez did not work on June 5, 2010. He
places the bulk of his involvement much
later. He remembers this specifically because
it involved working over the weekend of
October 2, 2010 when he planned to attend a
Red Sox tribute to one of his favorite players.
He also points to a memorandum he wrote,
dated September 29, 2010, purporting to
confirm the meeting with Chief Lee about
these events. Chief Lee never saw the
September 2010 memorandum until years
later. Whether the memorandum is a
contemporaneous record or a subsequent,
self-serving document, the memorandum
does persuade me that the timeframe – late
summer – stated in that memorandum
probably was, in fact, when the bulk of the
work was performed to update the DPD
computers as Sgt. Condez recalled. (Exh. 21;
Testimony of Souza & Condez)
I also find Sgt. Condez’s involvement with
the Windows 7 upgrade most likely began
with attempting to restore the Soares
Computer and he worked on that computer
first. (Exh. 5; Testimony of Souza & Condez)
After doing some on-line research, Sgt. Condez
concluded that the cause of the problem Mr.
Souza had encountered (what Condez called
“nag screens”) was the fact that the initial
authorization period had expired for whatever
version of Windows was then loaded on the
machine. (Exh. 9 [Condez Interviews];
Testimony of Condez)
Most Windows products give the customer a

40

default “product key”, enabling a 30-day
window of free use before the customer must
purchase and enter into the computer an
authorized permanent product key that
verifies that the customer has purchased
his/her

6 Among the discrepancies with the dates is that the embedded
clock showed that the Windows 7 operating system was allegedly
installed on the Soares Computer hours after the Office 2007
software, which it was undisputed is an impossibility. Also, other
analysis placed installation of Office 2007 on other computers
two months later. (Exh. 12)

41

39.

40.

41.

copy of the product legally. (Testimony of Souza,
Condez, Bell)
According to Microsoft on-line
documentation introduced in evidence, “prerelease” versions of “Windows 7 Beta” had an
expiration date of August 1, 2009. Windows
7 Release Candidate (RC) expired as June 1,
2010. After those dates, a computer with
these pre-release versions will start with a
“black screen”, a message appears that the
Windows version is not genuine, and the
computer shuts down and restarts every two
hours, which is intended to prompt the
customer to install the officially released
version of the software. (Exh. 9 [ Bell
Report]; Exh. 12; Testimony of Condez, Sousa
& Bell)
Permanent product keys may be purchased
individually for a single computer or as
“group keys” which enable activation of
multiple copies of the product (which
“count down” each time the key is entered
into a different computer, until the total
number of purchased installations is
reached). (Testimony of Souza, Condez,
Bell)
There are also so-called OEM keys that are
associated with volume licenses granted to
one or more specified computer manufacturers
which enables the manufacturer(s) to preload their brand-name (OEM) computers for
resale with Microsoft Windows 7 already
installed. OEM keys are not authorized for
use on computers from other manufacturers
other than the ones specified for the license or
the “generic” custom-built computers such as
those deployed at the DPD. (Exh. 9A;

42

42.

43.

44.

45.

46.

Testimony of Bell & Condez)
The typical cost for a product key needed to
authenticate one copy of Windows 7 runs
about $200 to $250. The cost to acquire an
Office 2007 product key runs about $150 to
$175 per copy. (Testimony of Souza, Bell &
Condez)
Sgt. Condez found on-line what he called an
“activation patch” that would eliminate “nag
screens” and enable the Soares Computer to
run Windows 7 immediately and
“indefinitely”. He installed the patch. (Exh. 9
[Condez Interview]; Testimony of Condez)
The “patch” that Sgt. Condez employed
worked by making certain changes to the
settings that overrode the activation
components of the Windows 7 software. The
“patch” was not a Windows-authorized product
and did not substitute for the required
purchase of a genuine “product key” for the
Windows products. I find that both Sgt.
Condez and Mr. Souza knew these facts.
(Testimony of Condez & Souza)
In order to update other DPD computers to
Windows 7, certain hardware (e.g., hard
drive, motherboard, etc.) had to be replaced to
handle the new software (e.g., Windows 7 and
Office 2007.7 (Exh. 9 {Condez Interviews];
Testimony of Souza & Condez)
As a stop-gap measure, Sgt. Condez brought
an unopened box from home containing a
Windows 7 upgrade disk and product key to
“cover” the Soares Computer. Sgt. Condez
placed the box in Deputy Chief Soares’s office
and stated: “Deputy, this box covers your
computer, if anybody asks.” At no time was
the box opened in order to use the product to
upgrade any machine. (Exhs. 9 [Condez
43

47.

48.

Interviews]; 10 & 10A; Testimony of Condez)
The evidence of Sgt. Condez’s work on the
Soares Computer focused on the Windows 7
operating system “patch”. Neither Mr. Souza
nor Sgt. Condez claimed that they had loaded
Office 2007 software on the Soares Computer.
Although Office 2007 obviously had been
loaded at some point, no conclusive evidence
was provided as to when or how that was
done. (Exhs. 9A, 9B & 12; Testimony of
Souza, Bell & Condez)
At some point after the Soares Computer had
been fixed, Sgt. Condez and Mr. Souza spent a
weekend at the DPD to assemble and deploy
the necessary additional DPD computers. As I
noted earlier, I find this work was most likely
done in the late summer as

7 The parties all assumed that Office 2007 was the then

current version. Although there is also an Office 2010
version, I infer that it was not released until a later date
and was not the version installed in the summer of 2010.

44

49.

50.

51.

Sgt. Condez recalled. (Exh. 9 [Condez
Interviews]; Testimony of Souza & Condez)
Mr. Sousa brought the hardware he had
acquired to Sgt. Condez who assembled the
parts into a working computer and returned
the machine to Mr. Souza to configure and
install on the DPD network. Sgt. Condez used
Deputy Chief Soares’s hard drive as the
“base” hard drive. He” cloned” each hard
drives for assembly into the DPD computers
using the base hard drive, meaning he made
an exact “bit for bit” copy of everything that
was on the Soares Computer hard drive.
Therefore, any programs or files on the Soares
Computer at the time of the cloning would
also be on the cloned hard drives used on the
rest of the DPD’s computers. I find that both
Sgt. Condez and Mr. Sousa knew these facts.
(Exh. 9 [Souza Interview; Condez Interviews];
Testimony of Condez & Souza).
Cloning, in and of itself, does not constitute
improper conduct. On the contrary, it is
considered the efficient and standard practice
in the computer industry when involved in
multiple installations of software onto a
computer (Testimony of Condez & Bell).8
As Sgt. Condez finished assembling the
hardware for each machine, including the
cloned hard drives, Mr. Souza deployed each
of the machines to their assigned locations
and connected them to the DPD’s computer
network servers. Each computer Mr. Souza
put on the network was given a name on the
network, i.e., “booking 1,” “booking 2,” and
“booking 3.” As he later admitted, Mr. Souza
did not take the required steps to restrict
administrative access to these newly

45

52.

configured machines solely through the
network password that only he knew.
(Testimony of Souza).
Mr. Souza left the “stickers” that identified
the Windows XP product key numbers for the
operating system that had previously been
installed on each computer. He did not

8 Mr. Souza was the only witness who said he disapproved
of cloning. (Exh. 9 [Sousa Interview]; Testimony of Souza)

46

purchase any new product keys for Windows 7
or Office 2007 for any of the DPD computers
that Sgt. Condez upgraded in 2010. He
“assumed” Sgt. Condez had purchased the
keys. He was “concerned” that the same old
product key stickers were on the machines
when he got them back from Sgt. Condez, but
Mr. Souza never asked Sgt.
Condez to provide him with any new keys,
group license information or the product key
numbers for any of the upgraded machines.
(Testimony of Chief Lee, Souza & Condez)
The Repair to Chief Lee’s Wife’s Laptop
53.

54.

55.

56.

Chief Lee married his wife in 2001 and they
have one child, a son, born in 2005. They
relocated to Massachusetts from Rhode
Island following Chief Lee’s appointment to
the DPD. (Testimony of Chief Lee)
In 2011, Chief Lee’s wife owned a small
ASUS brand laptop computer. This laptop
did not have a CD/DVD drive into which a
CD or DVD could be inserted. She used the
laptop mainly to browse the Internet, listen
to music, and to store digital photos that she
took. (Testimony of Chief Lee & Mrs. Lee)
Chief Lee’s wife routinely took pictures of
her son on a camera and on her phone and
would store the photos on her laptop
computer. She took all the photos at issue
in the current hearing. (Testimony of Mrs.
Lee).
Chief Lee’s wife knocked her laptop off a
table. Thereafter, she was unable to turn
the computer on or access the files stored
on it. She was quite upset over this and

47

57.

58.

59.

60.

61.

62.

63.

was particularly upset at losing family
photos. (Testimony of Chief Lee & Mrs. Lee).
At some point soon thereafter, Chief Lee
spoke with Sgt. Condez about his wife’s
damaged laptop. He asked Sgt. Condez if it
would be possible to examine the laptop as
part of his outside computer repair business
and see if files could be recovered, including
family photos. (Testimony of Chief Lee &
Condez).
Sgt. Condez indicated that he would look at
the laptop and see if he could recover the files.
Sgt. Condez asked where the important data
was stored and Chief Lee told him that it was
stored in the “My Documents” folder.
(Testimony of Chief Lee)
Chief Lee and Sgt. Condez agreed that Sgt.
Condez would work on the laptop exclusively
during his off-duty time as part of his
independent computer repair business and
charge Chief Lee like any other customer.
(Testimony of Chief Lee)
It was not uncommon for DPD officers
to hire fellow officers who operated
side businesses. (Testimony of Chief
Lee)
Chief Lee brought the laptop to work and
gave it to Sgt. Condez in the DPD’s parking
lot. He stated, "Let me know what you can
do." Sgt. Condez said, "Okay, I'll get back to
you.” (Testimony of Chief Lee & Condez)
Sgt. Condez worked on the laptop for
approximately “a week or two.” He worked on
the computer in the basement of his parents’
house, the area where he had a workspace
and ran his small computer repair business.
(Testimony of Condez)
In his workspace, Sgt. Condez has a specially48

configured computer for data recovery.

64.

65.

66.

67.

68.

This computer has many “docks” that allow
for him to hook up several hard drives to do
tasks, such as data recovery and hard drive
cloning. (Testimony of Condez)
Sgt. Condez was partially successful in
recovering data from the laptop but some files
were beyond repair and could not be
recovered. Sgt. Condez told Chief Lee that he
would get the laptop back to him as soon as he
was finished recovering the files. (Testimony of
Chief Lee & Condez)
Sgt. Condez purchased a new hard drive for the
laptop and transferred the data from the old,
damaged hard drive to the new hard drive. Sgt.
Condez then placed the new hard drive back
into the laptop. (Testimony of Condez)
Sgt. Condez gave Chief Lee the laptop back
with a new working hard drive installed and
gave Chief Lee the old broken hard drive.
Sgt. Condez also delivered a thumb drive to
Chief Lee containing a copy of the data that
Sgt. Condez said he had recovered. The
project took several weeks. (Testimony of
Chief Lee & Condez)9
Chief Lee gave the laptop and thumb drive to
his wife which she placed it in a cup next to
her bed where she stored miscellaneous items.
She engaged a professional photographer to
take photos of her son for Easter about a year
later and, with the help of Chief Lee, put the
photos on the thumb drive. The thumb drive
was placed back in the cup next to her bed and
remained there until June 2014. (Testimony of
Chief Lee & Mrs. Lee)
The laptop failed again in approximately
September or October 2013 and it was
49

discarded in approximately November 2013.
Chief Lee purchased a new laptop for his
wife as a Christmas gift that year.
(Testimony of Chief Lee &Mrs. Lee)
The March 2013 Activation Screen Issues
69.

70.

Until March 2013, the DPD’s computers
operated without further significant problems.
They received software updates in the
ordinary course. The only issues that Mr.
Souza remembered from this period included
networking problems and loss of some files.
There is no evidence that Sgt. Condez had any
further involvement with the DPD computers
until the alleged incidents in March 2013.
(Testimony of Chief Lee, Souza & Condez)
Prior to March 2013, Mr. Souza had engaged an
outside vendor known as Enforsys to

9

Sgt. Condez testified he gave a copy of the contents back to
Chief Lee in the form of a DVD, not a thumb drive. I do not
credit this testimony, as the laptop did not have a disk drive
and it is implausible that he did so or that both Chief Lee and
his wife would have essentially these same (mistaken)
recollections about it. (Testimony of Chief Lee, Mrs. Lee, Condez
& Crowley).

50

71.

72.

73.

replace DPD’s computerized records systems
(CAD/RMS). In January and February,
Souza and Enforsys personnel had been at
DPD to install their product on the DPD’s
servers and desktops and had made a
number of failed attempts to go “live”.
Ultimately, around the first week of March,
Mr. Souza abandoned the project and
uninstalled the Enforce product from the
DPD’s network servers and desktops.
(Testimony of Souza)
On Friday, March 1, 2013, Mr. Souza learned
that one of the booking room computers had a
dialogue box come up indicating that it needed
a “valid key”. (Testimony of Souza).
In response, Mr. Souza entered a Windows 7
product key number that he had on hand
which removed the warning and he thought
nothing further about it. At his investigatory
interview, Mr. Souza said he used what he
called an “OEM install” product key code that
he had purchased to license about seven
additional computers. At the Commission
hearing, Mr. Souza said these were “OEM
keys; they can be installed, basically, on
anything; you can build any hardware that
you want to build and install it that way.”
(Exh. 9 [Souza Interview]; Testimony of
Souza)
On Monday, March 4, 2013, Mr. Souza
learned that two more booking room
computers and one in the interview room had
the same issue with a dialogue box come up
indicating that the Microsoft Windows 7
operating system key was not valid. Again,
Mr. Souza used the “OEM keys” that he had
on hand to fix the problems. (Testimony of

51

74.

75.

76.

77.

78.

Souza).
Mr. Souza knew that these developments
implicated the authenticity of the product
keys on other DPD computers. He informed
Deputy Chief Szala (Deputy Soares’s
replacement).Chief Lee ordered whatever
necessary done to finally fix the problem
immediately, buying as many new keys as he
needed. (Testimony of Chief Lee & Souza)
At 1:28 p.m. Mr. Souza placed a call to Sgt.
Condez (who was off-duty) regarding the issues
with the computers. The call lasted 22 minutes.
(Exh. 28; Testimony of Condez).
Mr. Souza had limited recollection of the
telephone conversation.10 He recalled only
that he asked Sgt. Condez “professional to
professional” to tell him “what’s going on” and
Sgt. Condez replied that he was “pissed off”
being put on the midnight shift and he “went
to Microsoft and shut them off . . . disabled the
keys.” (Testimony of Souza)
Mr. Souza claimed that, based on this remark,
he assumed Sgt. Condez shut off the keys by
going to Microsoft’s website. Neither he, nor
any other witness at the Commission hearing
explained how Sgt. Condez could have done
this. I find that Sgt. Condez’s remarks were
sarcastic. I do not construe them as an
admission that Sgt. Condez did what Mr.
Souza said he assumed had happened or that
even Mr. Souza actually believed he did so.
(Testimony of Souza, Bell & Condez)
Sgt.. Condez recalled his conversation with
Mr. Souza clearly, which he took on his cell
phone in a supermarket parking lot. While I
do not credit all the statements Sgt. Condez
attributed to Mr. Souza during this

52

79.

conversation, especially what Mr. Souza
allegedly said about Chief Lee’s suggestion
that they could “rig” the computers to make
them work, I do credit Sgt. Condez’s testimony
to the extent it plausibly described Mr.
Souza’s expressed personal concern that the
problem would “end up coming back on me”,
and he was asking Sgt. Condez to help him so
he wouldn’t get “in trouble.” Sgt. Condez said
he was no longer “around days to fix stuff” and
refused to get involved. Mr. Souza hung up the
phone on Sgt. Condez very upset. (Testimony
of Condez)
At some point on March 4, 2013, most likely
after the conversation with Sgt. Condez,

10 Mr. Souza puts his call to Sgt. Condez as “very early” in the
morning and immediately before going to Deputy Szala and Chief
Lee and ordering new keys, but the credible evidence establishes
that his version is mistaken. His conversations with his superiors
had to have occurred before his call to Sgt. Condez, or contrary to
his testimony, he waited most of the day before reporting the
problem. (Exh.9 [Souza Interview]; Testimony of Souza)

53

80.

81.

82.

83.

Mr. Souza “overnighted” an order for fifty
(50) brand new Windows 7 product keys. He
received the first twenty-five keys the next
day, and shortly thereafter received the
remainder. (Exh. 9 [Souza Interview];
Testimony of Souza)
Mr. Souza then removed and reinstalled
the Windows 7 and Windows 2010
software using the product keys he had
recently purchased. No further shutdowns occurred. (Testimony of Souza, Bell
& Condez)
Chief Lee contacted Kevin White of the
Federal Bureau of Investigation. The
FBI referred Chief Lee to Tom
Montgomery, a civilian investigator
from Microsoft. (Testimony of Chief Lee)
On March 19, 2013, investigators from
Microsoft came to the DPD and made an onsite review of the DPD computers, including
the Soares Computer and twenty-eight other
desktops deployed throughout the DPD.
(Exhibits 9A & 12)
Katie Hasbrouck, an Anti-Piracy Specialist for
Microsoft reviewed three product keys that
she received as part of the Microsoft on-site
review (keys numbers ending in PW467,
3P7D8 and 7TP9F). Ms. Hasbrouck’s report
established the following facts:
• Sixteen of the computers (including the
Soares Computer) showed that they had
been loaded, initially, with the identical,
genuine Microsoft Windows 7 product key
(ending in PW487). This key is the one
that enables the user the 30-day window
of use before having to enter a permanent
key. (Exh. 9A; Testimony of Condez)

54

•

•

•

•

•

For reasons not explained in the report
or in testimony, no initial “30-day” key
was “captured” or reported for one of the
booking room computers, and several
others. (Exh. 9A)
All of the computers, save for the Soares
Computer, showed that they had been
loaded using individually numbered (not
“OEM” or “group”) Windows 7 product
keys. Microsoft did not evaluate the
authenticity of any of these product keys
because it had been told they were
purchased by the DPD “after the incident
was discovered.” (Exh. 9A)
All of the computers, save for the Soares
Computer, showed that they had been
loaded with the identically numbered
Office 2007 product key (ending in
3P7D8), that was a counterfeit key.
(Exh. 9A)
The Soares Computer showed that it had
been loaded with Windows 7 using a
genuine “OEM” product key (ending in
7TP9F) that was authorized for use only
on Acer, Gateway, and Packard Bell
computers and “never should have been
installed on this generic computer”. (Exh.
9A)
The Soares Computer also showed that it
had been loaded with an Office 2007
product key (ending in 94THW) that was
different from the key found on all other
DPD computers and was not one of the
three keys that Ms. Hasbrook had
specifically stated she had received and
reviewed. The chart that accompanied
her report, however, stated that this key
was counterfeit, although how this
55

determination was made is not clear as,
according to Ms. Hasbrook’s report, she
did not examine or research that key
number. (Exh. 9A)
• Twenty-three of the computers (but not
the Soares Computer or any of the
booking room computers) had been
loaded with Office 2010, using separate,
individually numbered product keys,
none of which were analyzed for
authenticity “since the key was
purchased by [DPD] after incident was
discovered”. (Exh. 9A)
DPD’s Internal Investigation
84.
85.

86.
87.

88.

Chief Lee hired Alfred Donovan to
investigate the issues with the DPD’s
computers. (Testimony of Chief Lee)
Mr. Donovan served for the Tewksbury Police
Department from 1976 to 2009, where he
eventually rose to the rank of chief of police.
Since 2009, he has run an investigative
service for police departments. (Testimony of
Donovan)
Mr. Donovan hired Kenneth Bell to assist
with the technical aspects of the
investigation. (Testimony of Donovan)
Mr. Bell earned a master’s degree in computer
science from Norwich University. He was the
supervisor of the Computer Crimes Unit for
the Rhode Island State Police for twenty years.
(Testimony of Bell)
Mr. Donovan produced a report dated
February 6, 2014 that opined that Sgt.
Condez was responsible for installing the
counterfeit Microsoft Office 2007 product key
and the unauthorized OEM Windows 7
product key on the DPD’s computers in 2010,

56

89.

90.

91.

92.

as well as the subsequent removal of the
Windows 7 keys in 2013. (Exhs 9 & 9B)
Messrs. Donovan and Bell relied upon their
interviews of Mr. Souza on November 6, 2013
and three days of interviews with Sgt.
Condez on November 1, 2013, December 2,
2013 and January 7. 2014. (Exhs 9 & 9B;
Testimony of Donovan & Bell)
The only unaltered computer that was available
for inspection was the Soares Computer.
All other DPD computers had been “flattened”
by Mr. Souza in October 2013, shortly after
Sgt. Condez was placed on administrative
leave. By flattening the computers, Mr. Souza,
“forensically wiped” the hard drives of all the
software and other “meta-data” (installation
history, log-on history, etc.), erasing the
computers’ hard drives and loaded them from
scratch, thus obliterating all history of what
had been loaded and unloaded from them. He
explained that he did this to “stop the rumor
mill” that Sgt. Condez had a back door into
the DPD’s system and this “weighed heavily”
on him. (Testimony of Souza, Bell, Giossi &
Condez)
Mr. Bell first presented the theory that a user
could manually, with administrative access,
use a SLMGR tool11 to remove the product key
with the “/upk” command, which would allow
a user to undo the changes made by the
“activation patch” installed by Sgt. Condez
and would cause the error messages that were
happening to the DPD’s computers. (Exhs. 9,
9B & 27; Testimony of Bell)
As indicated in the finding above,
however, Sgt. Condez denied that he
ever had administrative rights and
57

93.

94.

95.

Dartmouth presented no evidence that
he had such rights. (Testimony of Condez
& Souza)
A person using the SLMGR tool would have
to have network administrative rights and
either be physically sitting at the computer or
access the computer remotely. Dartmouth
produced no evidence showing that someone
without administrative access could use the
SLMGR tool to remove product keys
remotely. (Testimony of Bell)
On the final day of the hearing, Dartmouth
presented a second theory on how the
Windows 7 product keys could be removed
from the DPD’s computers. Mr. Souza opined
that, as of March 2013, it was possible to
remove the Windows 7 product key without
network administrative access if Sgt. Condez
had been physically at a computer’s
workstation. (P.H. Exh. 48; Rebuttal
Testimony of Souza)
Mr. Souza explained that this would have been
possible because, when he put the

11 Software Licensing Management Tool, which would allow
a user to undo the changes made by the activation patch
installed by the Appellant. (Exh. 27)

58

96.

97.

98.

computers onto the DPD’s network, he gave
them a name and an IP address but, as
indicated in Finding of Fact No. 51 above, he
had not taken steps to restrict such access as
part of the 2010 upgrade process. Mr. Sousa
opined that, therefore, a user could bypass the
network and gain administrative access by
logging onto the network locally. A user would
have to press the control, alt, and delete
buttons simultaneously to get the login and
password screen. At this point a new login
screen was accessed and a user could log in
locally by typing the name of the computer
(e.g. “booking1”) as the user and leave the
password blank. This would give a user
administrative access to that particular
computer. A user could then access the control
panel and remove the product key by using
the “change product key” button. (Rebuttal
Testimony of Souza)
Mr. Souza admitted on cross-examination
that his opinion was not based on any actual
experience as he never attempted to test his
hypothesis and was unclear as to whether or
not it would actually work. (Rebuttal
Testimony of Souza)
The DPD had surveillance cameras
recording 24 hours a day, seven days a week
during the time of the computer issues. The
cameras recorded the booking area where
Sgt. Condez would have had to sit to
physically access and remove the Windows 7
product keys as the DPD contends. The
cameras record to a DVR-type device that
can store footage for up to three weeks.
(Testimony of Chief Lee & Souza)
At no point did the DPD or Mr. Donovan

59

look at the recordings during their
investigation. When Chief Lee was asked
why this was never done he stated that
he “didn’t have a good answer”.
(Testimony of Chief Lee)
The Restraining Order
99.

100.

101.

102.

103.

On October 1, 2013, the day Sgt. Condez was
placed on administrative leave, but
apparently before he was notified, he
complained that his locker had been entered
and his DPD-issued firearm was missing. The
DPD initiated an investigation into the
incident, conducted by Mr. Donovan. As part
of the investigation, Sgt. Condez was ordered
to participate in a polygraph test. (Exhs. 7 & 9
[Investigative Report 2/6/2014]; Testimony of
Chief Lee & Donovan & Condez)
The polygraph test was scheduled for
December 20, 2013 on the third floor
conference room of the DPD Headquarters
at 11:00 a.m. (Testimony of Chief Lee &
Condez)
The day before the test, Sgt. Condez learned
that a civilian, John “Jack” Consigli, was to
administer the polygraph exam. (Testimony
of Condez)
Based on his research of Massachusetts
polygraph law, Sgt. Condez believed
polygraphs of law enforcement officers had to
be administered by a police officer. Although
the law is not clear, I find that Sgt. Condez did
hold a good faith belief that his construction of
the law was correct. (Exh. 8; Testimony of
Chief Lee, Condez & Donovan)
When Sgt. Condez entered the station on
December 20th he held a rolled up paper in his

60

104.

105.

106.

107.

hand, an application for a temporary
restraining order (“TRO”) to prevent the
polygraph test. He had not yet gone to court to
seek an order. (Exhs. 8 & 30; Testimony of
Condez).
Upon arrival, Sgt. Condez had a series of
conversations with Deputy Chief Szala in
the lobby. Sgt. Condez explained that he
wanted to go to court and be heard on his
TRO. Deputy Chief Szala reported back to
Chief Lee who was waiting upstairs. Chief
Lee directed Deputy Szala to return to the
lobby and find out specifically if Sgt. Condez
had obtained a court order. (Testimony of
Condez)
Deputy Chief Szala returned to the lobby
and asked Sgt. Condez if he had a court
order and when he replied in the negative,
Deputy Chief Szala returned to Chief Lee
with this information. Chief Lee ordered
Deputy Chief Szala bring Sgt. Condez
upstairs. DPD Sargent Scott Lake was in the
lobby and overheard the final exchanges
between the two officers. (Testimony of Lee,
Condez & Lake)
When he entered the third floor conference
room, Sgt. Condez held the rolled up TRO
application in his hand. Chief Lee, Mr.
Donovan, and Jack Consigli met him. When
Chief Lee confirmed that Sgt. Condez only had
a draft application and had not obtained any
official court order signed by a judge, he
ordered Sgt. Condez to take the polygraph or
hewould be fired. (Testimony of Chief Lee,
Donovan & Condez)
Sgt. Condez complied with Chief
Lee’s order and submitted to the

61

polygraph examination on
December 20, 2013. (Testimony of
Chief Lee & Condez) 12
Charges of Child Pornography
108.

109.

On April 3, 2014, Dartmouth received notice
that Sgt. Condez had retained counsel (not his
present counsel) to represent him at the
appointing authority hearing scheduled for
April 17, 2014 to consider the three then
pending charges of alleged misconduct in the
2010 upgrade of the DPD’s computers, the
alleged disruption of the computers in 2013
and the polygraph incident. The attorney
requested a continuance of the hearing to get
up to speed on the issues presented. As a
result, a new hearing date of June 9, 2014
was agreed upon. (Exhs. 8 & 42; Testimony of
Chief Lee & Condez)
On June 4, 2014, the attorney sought a second
continuance. On June 5, 2014, Dartmouth
counsel responded that the Town would
reschedule the upcoming hearing, but only if
Sgt.

12 The explanation for the missing gun and resulting polygraph
test results did not lead to any charges against Sgt. Condez and
were not offered as one of the reasons for the decision to seek to
terminate his employment and, therefore, were not considered
within the subject matter of this hearing or this Decision.

62

110.

Condez would agree to a firm hearing date
not later than June 17, 2014. Although the
attorney was available, due to a family
medical situation, through counsel, Sgt.
Condez said he was not available until after
July 1, 2014. On June 5, 2014, Dartmouth
counsel advised that the Town would not
postpone the hearing until July or later, and
that it would proceed on June 17, 2014. No
hearing was held, however, due to the
events that followed. (Exhs. 43; Testimony of
Chief Lee & Condez)
On June 6, 2014, Sgt. Condez hand delivered
a letter (dated June 5, 2014) to the
Dartmouth Select Board c/o Town
Administrator Cressman, to which he
attached copies of two photographs of Chief
Lee’s son in an apparent state of nudity. The
photos were redacted to cover the child’s
privates, but the child’s face was not
disguised, covered or redacted. Sgt. Condez’s
letter stated:
“Attached are the photos which were
recently discovered when initially
recovered from Timothy Lee’s
personal laptop which was given to
me by him to be serviced for a failing
hard drive. The metadata encoded in
these photos tie them to the same
brand and model of digital camera
used to take numerous other family
photos. These are only two of multiple
photos of this nature.
There is also a possibility that some
of the photos were taken out of state.
The photos can, at best, be described
as disturbing. They are more

63

accurately, possible evidence of
abuse or sexual exploitation of a
child by him and could be indicative
of serious liability for the Town
should other victims be discovered.
This is being shared with the Select
Board in their role as Police
Commissioners and based on their
duty to supervise the Chief of Police.
“These photos have been provided
to the Select Board in a redacted
form so they are aware of this
serious issue prior to it coming to
them from an outside source. It is
particularly disturbing to me and
I’m sure it will be to the public as a
whole that someone in a position of
public trust would be involved and
or condone this type of conduct. I’m
sure I don’t have to explain the
severity of something such as this
and the duty of the Select Board to
investigate something as serious as
this. I will be happy to provide all of
the original evidence to whatever
entity or outside police agency the
Select Board decides to have
investigate this matter. Given the
serious nature of the issues here I
don’t have to go into great detail as
to the consequences for the Town
should other victims be discovered
given that the Town now has
knowledge of the situation. Thank
you for your prompt attention in
this matter.” (Exh. 3)

64

111.

112.

113.
114.

The photographs are two of hundreds of family
pictures taken by Chief Lee’s wife over the
years. About a dozen depict their infant son in
a state of partial nudity, nearly all of them
taken in their home during bath time which
was her son’s “absolutely funny time.” One
attached photo depicts the child, at about age
one, lying face up in the bathtub, his smiling
face and stomach above the water line. His
privates are immersed and not visible. The
other photo shows the toddler at about age
four. Chief Lee’s wife heard her son giggling in
the bathroom, she entered the room to find
him acting silly in front of the bathtub and
snapped the picture. (Exh. 11; Testimony of
Mrs. Lee)
Sgt. Condez selected these two
photographs to include in the letter
because they were “the two that were the
most disturbing to me.” (Testimony of
Condez)
There were no photos introduced in evidence
of any other children in a state of undress.
(Exhs. 17, 23 & 29)
Chief Lee was informed immediately of Town
Administrator Cressman’s receipt of Sgt.
Condez’s letter and the attached photos. On
the same day he was informed of the letter,
Chief Lee contacted the New Bedford Office
of the Bristol County District Attorney.
Chief Lee demanded that the District
Attorney “investigate me”, i.e., conduct an
investigation into the allegations in the
June 5th letter that Chief Lee had engaged
in the crime of sexual exploitation of a child.
(Testimony of Chief Lee)

65

115.

116.

117.

118.

119.

120.

On June 12, 2014, Bristol Country Assistant
District Attorney Sylvia Rudman informed
Massachusetts State Trooper Hollis Crowley
that Chief Lee had contacted the District
Attorney’s Office regarding the allegations
against him. (Testimony of Crowley)
Trooper Crowley was assigned to investigate
the allegations against Chief Lee. Trooper
Crowley is an attorney who served as an
Assistant District Attorney within the
Suffolk County District Attorney's Office from
2001-2005. She has served as a Trooper
within the Massachusetts State Police since
2005. She was assigned to the Suffolk
County District Attorney's Office in the
Massachusetts State Police Detective Unit
from 2007 until 2013 when she was
transferred to the Bristol Country State
Police Detectives Unit (“SPDU”). (Testimony
of Crowley)
On June 13, 2014, Trooper Crowley contacted
Chief Lee and asked if he would submit to an
interview. Chief Lee agreed to come to the
SPDU in New Bedford that same day.
(Testimony of Crowley)
Chief Lee arrived at the SPDU on June 13,
2014 and submitted to an interview by
Trooper Crowley without representation by
counsel. He also provided Trooper Crowley
with the thumb drive that he had received
from Sgt. Condez, as well as a copy of the June
5th letter and the attached images of his son.
(Testimony of Chief Lee & Crowley)
Dartmouth retained Attorney Robert
Pomeroy to investigate the allegations
contained in the June 5th letter. (Testimony
of Pomeroy)
Atty. Pomeroy previously served within the
66

121.

122.

123.

124.

125.

Town of Plymouth Police Department from
1977-2008, where he attained the ranks of
detective, sergeant, lieutenant, captain, and
served as Chief of Police from 1992-2008. He
also served as the interim Chief of Police for
the Town of Hamilton Police Department in
2008-2009, and interim Chief of the Town of
Sandwich Police Department in 2010. He was
admitted to the Massachusetts Bar in 1996.
He is retired from law enforcement and now
provides training, consulting, and
investigation services to law enforcement
agencies through his company, Pomeroy
Resources, Inc. (Testimony of Pomeroy)
On June 17, 2014, Town Administrator
Cressman wrote Sgt. Condez stating that
Dartmouth had hired Atty. Pomeroy to
investigate the allegations of his June 5, 2014
letter and requested that Sgt. Condez cooperate
in this investigation. (Exhibit 14A)
On June 21, 2014, Atty. Pomeroy
conducted an interview of Chief Lee, who
appeared without counsel. (Testimony of
Pomeroy)
Chief Lee obtained from the State Police a CD
copy of the contents of the original thumb
drive provided to Trooper Crowley on June 13,
2014. Chief Lee provided this CD to Atty.
Pomeroy. The State Police retained Chief
Lee’s original thumb drive. (Exh. 17;
Testimony of Chief Lee, Pomeroy & Crowley)
On June 21, 2014, Atty. Pomeroy also
conducted a separate interview of Chief
Lee’s wife, who also appeared without
representation by counsel. (Testimony of
Pomeroy)
Atty. Pomeroy scheduled a meeting with Sgt.
Condez, through his (then) counsel, which
67

126.

127.

128.

129.

130.

took place on July 1, 2014. (Testimony of
Robert Pomeroy)
Sgt. Condez’s (then) counsel asked Atty.
Pomeroy if Sgt. Condez was being compelled to
speak, to which Atty. Pomeroy stated he was
not being compelled to speak because he did
not have the authority for such compulsion.
Sgt. Condez declined to speak to Atty.
Pomeroy and the meeting ended. (Testimony of
Pomeroy & Condez)
At this point, neither Dartmouth nor
Sgt. Condez had reported the matter to
the Department of Children and
Families (“DCF”). (Testimony of Pomeroy
& Condez)
On or about July 3, 2014, without prior notice
to Dartmouth, Sgt. Condez walked into the
local DCF office in Taunton and made a formal
“Section 51A Report” with DCF’s Taunton
office alleging “neglect of [Chief Lee’s son]
approximately age 4 by his father”. The report
stated that Sgt. Condez was a “mandated
reporter” who “was asked by the child’s father
to do some work on his personal laptop
computer to retrieve some lost files.
While working on this computer, the reporter
came across family photos……..Reporter made
copies of these photos.” (Exh. 24: Testimony of
Condez)
On July 11, 2014, DCF closed (“screened
out”) the Section 51A complaint, concluding:
“The allegations do not rise to the level of
investigation at this time.” (Exh. 24)
By a letter from the DPD’s Internal Affairs
Officer Lieutenant Rutch, dated July 18,
2014, Sgt. Condez was notified that he was

68

131.

132.

“identified as the subject of an official
Internal Affairs Investigation”. The letter
informed him that Atty. Pomeroy was
conducting the investigation initiated as a
result of the June 5th letter. The letter further
instructed Sgt. Condez to meet again with
Atty. Pomeroy on July 22, 2014 and bring “all
original evidence” described in his June 5th
letter. (Exhibit 14B)
Sgt. Condez had stated in his June 5th letter:
“I will be happy to provide all of the original
evidence to whatever entity or outside police
agency the Select Board decides to have
investigate this matter.” (Exhibit 3)
On July 21, 2014, Dartmouth counsel was
advised by Sgt. Condez’s (then) counsel that
Sgt. Condez would meet with Atty. Pomeroy
but would not bring “unredacted photos”
because Atty. Pomeroy “is not a statutory
recipient”. The attorney also stated:
“Of course, if you really were
investigating this matter properly, the
Chief [Lee] could simply be ordered to
turn over the photographs. But if the Sgt
is charged with anything relating to this
matter, you will get to see the photos in
the public hearing when they are offered
in poster size as exhibits.”
(Exh. 44)

133.

On July 23, 2014, Troopers Crowley
and Daniel Giossi appeared at Sgt.
Condez’s residence intending to speak
with him regarding his allegation of
child abuse and exploitation against
Chief Lee. (Testimony of Crowley)

69

134.

135.

136.

137.

138.

Trooper Giossi was assigned to assist Trooper
Crowley with the technical aspects of her
investigation. He is a trooper within the
Massachusetts State Police assigned to the
Detectives Unit for the Bristol County District
Attorney’s Office. He has served within the State
Police since 1996. He is a member of the State
Police Internet Crimes Against Children (“ICAC”)
task force. (Testimony of Giossi)

Sgt. Condez’s mother answered the door. The
troopers explained that they were there to
speak with Sgt. Condez about allegations he
had made regarding child exploitation in his
June 5th letter. Trooper Crowley gave
Sgt.Condez’s mother her business card and
written contact information. (Testimony of
Giossi & Crowley)
Sgt. Condez’s mother informed her son on
July 23rd that the State Police had come to
the house regarding his complaint and gave
him Trooper Crowley’s business card.
(Testimony of Condez)
The next day, Sgt. Condez, with his (then)
counsel, attended the second interview with
Atty. Pomeroy. Counsel informed Atty.
Pomeroy that the Massachusetts State Police
had contacted Sgt. Condez the day before. On
advice of counsel, Sgt. Condez again declined
to make any statement. Atty. Pomeroy
requested the original evidence described in
the June 5th letter. On advice of counsel, Sgt.
Condez declined, citing case law that Atty.
Pomeroy was not an appropriate party to
receive the evidence and that the evidence
would be turned over to the State Police.
(Testimony of Pomeroy)
Sgt. Condez’s (then) counsel contacted
Trooper Crowley and a July 30, 2014
70

139.

140.

141.

142.

meeting was set. Trooper Crowley asked to
make Sgt. Condez aware of the fact that she
wanted any and all original evidence,
including any photographs or anything
involved in the complaint. (Testimony of
Crowley)
On July 24, 2014, after learning of the visit
from Trooper Crowley, Sgt. Condez made a
DVD copy of the information contained on the
scratch drive on which he had placed the
“original evidence” he had cloned from Mrs.
Lee’s laptop during the repair of her computer.
He then “forensically wiped” the scratch drive,
leaving no recoverable data on it. He also made
a list – called a “hash report” – of the files he
had retrieved. Sgt. Condez said he did this
because he “didn’t want to be in possession of
contraband.” (Exh. 25; Testimony of Condez)
On July 30, 2014, Troopers Crowley and
Giossi interviewed Sgt. Condez with his
(then) counsel present. (Testimony of Giossi
& Crowley)
Trooper Crowley took notes of the interview
and wrote a report two days later, while the
interview was still fresh in her mind,
containing her recollections. She had
intended to, and believed that she had
recorded the interview, with Sgt. Condez’s
consent, but later discovered, due to technical
difficulties, the recorder had not been turned
on. (Exh. 15; Testimony of Crowley & Giossi)
During the interview, Sgt. Condez stated that
the he had used a scratch drive13 to recover
the data from the damaged hard drive on
Chief Lee’s wife’s laptop and then replaced
the damaged hard drive with a working one.
He stated that in May 2014 he had
accumulated a pile of used scratch drives that
71

he wanted to wipe so he could reuse them.
Sgt. Condez reuses these scratch drives often.
It is his process to eventually wipe the data on
used scratch drives so he will have clean
scratch drives for future projects. Sgt. Condez
scans every hard drive before wiping them, to
ensure nothing of importance is lost. He
browses files in “thumbnail mode” for speed
and ease. He then wipes the scratch drive,
thereby erasing all the data on the drive.
(Exh.. 15; Testimony of Giossi, Crowley
&Condez)

13 Sgt. Condez uses spare hard drives of various

capacities to transfer data. The Appellant refers to these
hard drives as “scratch drives.” (Exh. 15; Testimony of
Giossi & Condez).

72

143.

Sgt. Condez said that, per his custom, in May
2014, he went through the stack of scratch
drives to see if there was anything on any of
them of importance. He did not remember
what was on these drives. He said he opened
a file on one of the scratch drives labeled
“pictures” and browsed through the folder
and sub-folders. He testified, “the minute I
clicked on that there was pictures opened up,
right in the center of the screen was a picture
of a naked child” and “ I found it disturbing
and inappropriate and kind of shocking”. He
then continued to look and found several
other naked photos of the child
whom he knew to be Chief Lee’s son. (Exh. 15;
Testimony of Giossi, Crowley & Condez)

144.

Sgt. Condez said he then put aside all the
scratch drives he had accumulated, and
stopped wiping them for reuse. (Testimony of
Condez)
Troopers Crowley and Giossi requested both
the original damaged hard drive and the
scratch drive with Mrs. Lee’s data. Sgt.
Condez responded that he did not have the
original data because he had gotten rid of it.
Trooper Crowley and Trooper Giossi
understood this to mean that he had thrown
it out, when, in fact, Sgt. Condez was
referring to the data he had wiped, not the
scratch drive itself, which he did retain.
(Exhs. 25 & 31; Testimony of Giossi, Crowley
& Condez)
Sgt. Condez provided the State Police with the
DVD copy of the laptop’s data that he had
made. (Testimony of Giossi)
Sgt. Condez was able to identify which of the

145.

146.
147.

73

148.

149.

150.

scratch drives he had used in the repair of
the laptop, because the computer had a
160GB hard drive and he only had one
scratch drive of the same size. During the
Commission hearing, this drive was provided
to a forensic analyst, Michael Verreonneau,
of Multi-Media Forensic Services, Inc. who
examined the hard drive and attempted to
retrieve recoverable data. Mr. Verreonneau’s
examination revealed that all data on the
hard drive had been destroyed beyond
recovery. The entire drive had been
“forensically wiped” and all data overwritten
with zeros. (Exh. 25; Testimony of Giossi &
Condez)
The original hard drive or cloned scratch drive
would have had important information not
included on the DVD copy, such as the dates
when the files were created and dates and
times when the files were accessed. When Sgt.
Condez copied the contents of the laptop onto
the DVD all the files had the same creation
date, July 24, 2014, the date that he erased
the scratch drive and created the DVD. He
said he also wiped all the other scratch drives
he had earlier set aside at this time. (Exhs. 17
& 25; Testimony of Giossi)14
The CD copy that Sgt. Condez provided to the
State Police contains a main folder named,
“Documents.” This folder contains six
subfolders that contain more than one
hundred different sub-subfolders, which
contain a total of 1,371 files. (Exh. 17)
One of the six subfolders within the
“Documents” folder is named “Pictures.” The
“Pictures” subfolder contains eleven separate
sub-subfolders that contain a total of 1,045 jpg
images of family photos. (Exh. 17)
74

151.

152.
153.

When the contents of the “Pictures”
subfolder are viewed with the subsubfolders displayed in alphabetical order,
the first of eleven sub-subfolders listed is
named, “Floridaoct2010halloween.” This
sub-subfolder contains 289 separate .jpg
images. It contains no photos of any nude
child. (Exh. 17)
Photo 1 and Photo 2, which are attached to
Sgt.Condez’s June 5th letter, are jpg images
contained on the CD. (Exhs. 11. 17 & 23)
Photo 2, the image that Sgt. Condez claims he
immediately discovered when he viewed

14 Among the questions that might have been explained by
access to the meta data on the scratch drive was the fact that the
DVD provided to the State Police contained copies of the photos
attached to the June 5, 2014 letter, but the “thumb drive”
provided to the State Police by Chief Lee did not. No witness
could explain this discrepancy.

75

the hard drive containing the contents of the
laptop, is contained in a sub-subfolder titled
“xmas2010Catskills2011.” This sub-subfolder
contains 138 separate jpg images. When
displayed in alphabetical order, image
“xmas2010Catskills2011 133” is the 63rd
image listed. This is the only image in that
subfolder showing a nude child. (Exh. 17)
154. Photo 1 is a jpg image contained in a different
sub-subfolder which contains 252 separate jpg
images. When viewed in alphabetical or
numerical order, Photo 2 is the 249th image
out of 252 listed. This photo is one in a
sequence of pictures of an infant boy playing
with his toys in a bathtub, all clearly taken at
one time. (Exhs 11, 17, 23, 29)
SUMMARY OF CONCLUSION
Dartmouth met its burden to establish, by a
preponderance of evidence, that Sgt. Condez has
committed misconduct that justifies his termination
as a police officer with the DPD. Although that
burden was not met as to the charges related to
improper behavior in updating and disrupting the
DPD computer system, or the alleged untruthfulness
surrounding his appearance for a polygraph test,
Dartmouth has proved the charges of conduct
unbecoming an officer for Sgt. Condez’s wholly false
accusations that Chief Lee was guilty of a felony,
namely, criminal abuse of his only child. Sgt. Condez
showed extreme lapse of judgment, untruthfulness
and unconscionable retaliatory behavior motived by
an unfounded personal animus against Chief Lee
and others, all of which is utterly intolerable in a
police officer. Accordingly, Dartmouth proved just
cause for his termination on those charges against
him.

76

APPLICABLE LEGAL STANDARD
G.L. c. 31, §41 through §44, set forth the
process through which a tenured civil service
employee is typically disciplined by an appointing
authority and, if aggrieved by that decision, entitled
to appeal to the Commission for a de novo review of
the appointing authority’s decision.
This appeal, however, arises from a rarely invoked
provision of civil service law contained in G.L.c.31,
§41A, by which an employee and the appointing
authority, by mutual agreement, may submit the
matter directly to the Commission for hearing in the
first instance. Section 41A provides:
“Upon the request of the appointing
authority and a tenured employee, who is
entitled to a hearing [by the appointing
authority] pursuant to the first paragraph
of section forty-one, a hearing before a
disinterested hearing officer, designated by
the chairman of the commission, may be
held in lieu of a hearing before the
appointing authority.
Such a hearing officer shall make findings
of fact and may make recommendations for
decision to the commission. Following the
decision of the commission, there shall be
no appeal pursuant to the provisions of
section fourth-three; provided however, that
a petition to review may be filed pursuant
to the provisions of section fourth-four. All
requirements relative to written notice and
the holding of hearings pursuant to this
section shall be governed by those set forth
in section forty-one.”
The Commission is not aware of any judicial

77

precedent concerning the standard of review or
procedure for hearings held pursuant to Section
41A, and the parties have not called attention to
any. Accordingly, the decision in this matter will be
analyzed under the same standards that the
Commission applies to its de novo review of appeals
brought under Section 43.
The role of the Commission is to determine
whether the Appointing Authority proved, by a
preponderance of evidence, just cause for the
discipline imposed. G.L. c. 31, § 43. See, e.g., City
of Cambridge v. Civil Serv. Comm’n, 43 Mass.App.Ct.
300, 304, 682 N.E.2d 923 (1997); School Comm. of
Brockton v. Civil Serv. Comm’n, 43 Mass.App.Ct. 486,
488, 684 N.E.2d 620 (1997); Town of Falmouth v. Civil
Serv. Comm'n, 447 Mass. 814, 823, (2006); Police
Dep't of Boston v. Collins, 48 Mass.App.Ct. 411,
rev.den., 726 N.E.2d 417 (2000); McIsaac v. Civil Serv.
Comm'n, 38 Mass App.Ct.473,477 (1995); Town of
Watertown v. Arria, 16 Mass.App.Ct. 331, 334,
rev.den., 390 Mass. 1102 (1983).
The Commission determines justification for
discipline by inquiring, "whether the employee has
been guilty of substantial misconduct which adversely
affects the public interest by impairing the efficiency
of public service." School Comm. v. Civil Serv.
Comm’n, 43 Mass. App. Ct. 486, 488, rev.den., 426
Mass. 1104 (1997); Murray v. Second Dist. Ct., 389
Mass. 508, 514 (1983). The Commission is guided by
“the principle of uniformity and the ‘equitable
treatment of similarly situated individuals’ ” as well
as the “underlying purpose of the civil service system
‘to guard against political considerations, favoritism
and bias in governmental employment decisions.’ ”
Town of Falmouth v. Civil Service Comm’n, 447 Mass.
814, 823 (2006) and cases cited. It is also a basic tenet

78

of the “merit principle” of civil service law that
discipline must be remedial, not punitive, designed to
“correct inadequate performance” and “separating
employees whose inadequate performance cannot be
corrected.” G.L. c. 31, § 1
An action is "justified" if "done upon adequate
reasons sufficiently supported by credible evidence,
when weighed by an unprejudiced mind, guided by
common sense and by correct rules of law."
Commissioners of Civil Serv. v. Municipal Ct., 359
Mass. 211, 214 (1971); Cambridge v. Civil Serv.
Comm’n, 43 Mass. App Ct. 300, 304, rev.den., 426
Mass. 1102 (1997); Selectmen of Wakefield v. Judge of
First Dist. Ct., 262 Mass. 477, 482 (1928). An
appointing authority's burden of proof is satisfied "if
it is made to appear more likely or probable in the
sense that actual belief in its truth, derived from the
evidence, exists in the mind or minds of the tribunal
notwithstanding any doubts that may still linger
there." Tucker v. Pearlstein, 334 Mass. 33, 35-36
(1956); Selectmen of Wakefield v. Judge of First Dist.
Ct., 262 Mass. 477, 482 (1928).
The Commission must take account of all
credible evidence in the record, including
whatever may fairly detract from the weight of
any particular evidence. See, Mass. Ass’n of
Minority Law Enforcement Officers v. Abban, 434
Mass. 256, 264-65 (2001). It is the purview of the
hearing officer to determine the credibility of
testimony presented to the Commission. E..g.,
Leominster v. Stratton, 58 Mass.App.Ct. 726, 729
(2003). See Embers of Salisbury, Inc. v. Alcoholic
Beverages Control Comm’n, 401 Mass. 526, 529
(1988); Doherty v. Ret. Bd. Of Medford, 425 Mass.
130, 141 (1997). See also Covell v. Dep’t of Social
Services, 439 Mass. 766, 787 (2003) (where live

79

witnesses gave conflicting testimony, decision relying
on an assessment of their relative credibility cannot
be made by someone not present at the hearing).
The Commission must also take into account the
special obligations the law imposes upon police
officers, who carry a badge and a gun and all of the
authority that accompanies them, and which requires
police officers to comport themselves in an exemplary
fashion, especially when it comes to exhibiting selfcontrol and to adhere to the law, both on and off duty.
“[P]olice officers voluntarily undertake to adhere to
a higher standard of conduct . . . .
Police officers must comport themselves in
accordance with the laws that they are sworn to
enforce and behave in a manner that brings
honor and respect for rather than public
distrust of law enforcement personnel.
they
implicitly agree that they will not engage
in conduct which calls into question their
ability and fitness to perform their official
responsibilities.”
Attorney General v. McHatton, 428 Mass. 790,
793-74 (1999) and cases cited. See also Falmouth
v.
Civil Service
Comm’n,
61
Mass.App.Ct.
796, 801-802
(2004); Police
Commissioner v. Civil Service Comm’n, 39
M ass.App.Ct. 894, 601-602 (1996); McIsaac v. Civil
Service Comm’n, 38 Mass.App.Ct. 473, 475-76
(1995); Police Commissioner v. Civil Service Comm’n,
22 Mass.App.Ct. 364, 371, rev.den. 398 Mass. 1103
(1986) See also Spargo v. Civil Service Comm’n, 50
Mass.App.Ct. 1106 (2000), rev.den., 433 Mass. 1102
(2001)
Off-duty misconduct properly can be the basis for
discipline when the behavior has a “significant
correlation” or “nexus” between the conduct and an
employee’s fitness to perform the duties of his public
80

employment. See, e.g., City of Cambridge v.
Baldasaro, 50 Mass.App.Ct. 1, 4, rev.den., 432 Mass,
1110 (2000); School Committee of Brockton v. Civil
Service Comm’n, 43 Mass.App,Ct. 486, 491-92,
rev.den., 426 Mass. 1104 (1997); Timperly v.
Burlington School Committee, 23 MCSR 651 (2010)
(misconduct by off-duty school custodian in public
park).
ANALYSIS
Dartmouth’s Charge Letter (Exh. 2) asserted a
total of nine charges containing thrity- three
specifications, alleging misconduct in violation of the
DPD’s General Order 600, Sections
650.00 (Required Conduct-Truthfulness & Criminal
Conflict [committing criminal acts, whether or not
conviction results], Departmental Communications,
Courtesy); and Section 670.00 (Prohibited Conduct –
Conduct Unbecoming an Officer, Abuse of
Department Property, Incurring Department
Liability & Neglect of Duty). In many respects the
charges and specification are duplicative and, for
purposes of this decision are grouped into four
categories:
I.
Charges Related to the 2010 Computer
Upgrade: Charge 2, Specifications 1
through 7 (Conduct Unbecoming an
Officer); Charge 3, Specifications 1
through 5 (Criminal Conflict); Charge 4,
Specifications 1 through 5 (Abuse of
Department Property); Charge 5,
Specifications 1 through 5 (Incurring
Departmental Liability)
II.

Charges Related to the 2013 Computer
Disruption: Charge 1, Specification 3
(Truthfulness); Charge 2, Specification 8
(Conduct Unbecoming an Officer); Charge
81

4, Specification 6 (Abuse of Department
Property); Charge 6, Specification 1
(Departmental Communications); Charge
7, Specification 1 (Courtesy); Charge 8,
Specification 1 (Neglect of Duty)
III.

Charges Related to the Polygraph
Examination: Charge 1, Specifications
1 & 2 (Truthfulness); Charge 2,
Specifications 1 & 2 (Conduct
Unbecoming an Officer)

IV.

Charges Related to False Accusation
of Child Abuse: Charge 9,
Specification 1 (Conduct Unbecoming
an Officer)

DPD General Order 600 upon which Dartmouth’s
Charge Letter relies, provide as follows:
Section 650.00 (Required Conduct –
Truthfulness
“No member shall knowingly or with
reckless disregard for the truth sign any
false official statement or report [,]
commit perjury, or give false testimony
before any court, board, or commission,
or in any judicial or administrative
hearing, whether or not under oath.
Members found to be in violation of
this rule shall be subject to
discipline up to and including
discharge from the Department.”
Section 650.00 (Required Conduct – Criminal
Conflict)
“[Criminal conflict] is the commission of
any felony or misdemeanor, or the
violation of the criminal laws or statutes of

82

the United States or of any local
jurisdiction. Members shall not commit
any motor vehicle or criminal act (felony or
misdemeanor), or violate the regulatory or
criminal laws or statutes of the United
States or of any state or local jurisdiction
(bylaw/ordinance0 whether on or off duty.’
NOTE: A member may be guilty of
violating this rule regardless of the
outcome of any criminal court case.
Conviction for the violation is prima facie
evidence of a violation of this rule.
However, even in the absence of a
conviction (which requires proof beyond
a reasonable doubt), a member may still
be disciplined under this rule for the
conduct that was involved since a
preponderance of the evidence is the
quantity of proof.”
Section 650.00 (Required Conduct –
Departmental Communications)
“All officers shall transmit all official
communications promptly, accurately and
completely to other officers of the
department as required, and shall
immediately inform their Officer-In- Charge
of any matter of police importance coming to
their attention during their tour of duty, or
otherwise. They shall call to the attention of
their relieving officers and information
regarding unresolved problems that may
arise during the next tour of duty.”
Section 650.00 (Required Conduct – Courtesy)
“All officers shall be courteous and
considerate to the public and to their
superior officers and to their fellow officers
83

of the department. They shall be tactful in
the performance of their duties and are
expected to exercise the utmost patience
and discretion even under the most trying
circumstances.”
Section 670.00 (Prohibited Conduct – Conduct
Unbecoming an Officer
“The commission of any specific act or
acts of immoral, improper, disorderly
or intemperate personal conduct, which
reflects discredit upon the officer
himself, upon his fellow officers or
upon the police department.”
Section 670.00 (Prohibited Conduct – Abuse of
Department Property
“Intentionally or negligently abusing,
misusing, damaging or losing Police
Department property or equipment.”
Section 670.00 (Prohibited Conduct – Incurring
Department Liability
“An officer or employee shall not incur a
liability chargeable to the police
department without the prior knowledge
of the Chief of Police.”
Section 670.00 (Prohibited Conduct – Neglect of
Duty
“Being absent from assigned duty
without leave; leaving post or assignment
without being properly relieved; or failing
to take suitable and appropriate police
action when any crime, public disorder or
other incident requires police attention or
service.”
After considering each of the foregoing charges and
specifications contained in the Charge Letter, and
84

the argument of the parties, I find that Dartmouth
has proved that Sgt. Condez did make false
accusations amounting to charges that Chief Lee had
committed a felony, i.e. child abuse, either knowing
them to be false or with reckless disregard and, in
addition, made an effort to conceal his actions, all of
which were taken with an ulterior motive to impede
the investigation of the original pending charges
being pursued against him. This conduct constitutes
a serious violation of Section 670.00 Conduct
Unbecoming an Officer and, as such, his misconduct
is of such severity that it warrants his termination
from the DPD.
Charges Related to the 2010 Computer Upgrade and
2013 Computer Disruption.
The bulk of the charges Dartmouth asserted
against Sgt. Condez assert that, in 2010, that Sgt.
Condez installed unlicensed and counterfeit
Microsoft Windows and Microsoft Office products on
the DPD’s computers and, in 2013, surreptitiously,
removed these product keys and thereby interrupted
the DPD’s computer access and then lied about his
behavior, all in violation of federal criminal
copyright law and various DPD Rules and
Regulations. I find that Dartmouth has not met its
burden of proving any of the twenty-eight
specification covered by these charges, save for some
infractions of Rule 650.00 for discourteous and
disruptive behavior in the investigation of the
computer-related issues. Had he committed no other
offense, I would find these infractions worthy of
some discipline, perhaps even a temporary demotion.
In view of my determination that Sgt. Condez’s other
behavior in connection with the charges related to
the Section 51A issue, alone, warrant his
termination, there is no need to specifically address
85

what lesser level of discipline would be warranted on
the computer-related charges.
First, as to the computer upgrade, Sgt. Condez
never denied that he took steps to override the “nag”
screens that had appeared on the Soares Computer
with a OEM “activation patch” and that, he later
“cloned” what had been installed on the Soares
Computer onto all of the other hard drives that he
then placed into the additional machines for
deployment throughout the DPD. The experts
(except Mr. Souza) agreed that cloning the hard
drives did not, alone, suggest anything improper.
Sgt. Condez also acknowledged that he knew that
what he did had, in some way, enabled the Soares
Computer to run indefinitely as if it had been
equipped with OEM Microsoft products, which he
knew was not the case. By his production of a
Windows 7 upgrade box to “cover” the Soares
Computer, he clearly recognized that further action
was necessary to obtain an approved license for the
Soares Computer, and, therefore, all of the other
machines “cloned” from it. From there, however,
evidence becomes inconclusive and does not establish
by a preponderance of evidence that Condez’s actions
were taken solely on his own initiative and/or with
the knowledge or intent that the DPD computer
upgrades would never be lawfully licensed.
I find it implausible that Mr. Souza would
have expected Sgt. Condez to have purchased
authorized product keys for all of the (approximately
thirty) new machines, which would have required a
personal outlay of thousands of dollars. I also find it
implausible that Mr. Souza would have deployed the
upgraded computers without even asking for the
product key numbers that had been installed. His
acknowledgement that he saw the same old Windows
XP product key stickers on the machines, although
he knew Sgt. Condez had cloned them all from the
86

Soares Computer, and yet never bothered to inquire,
is inexplicable. I cannot envision that as IT Director,
he would have operated for almost three years
without ever having made a record of
the product key numbers that were assigned to the
computers under his responsibility. The fact that,
when problems arose, Mr. Sousa seemed to know
exactly what was needed to fix the problem, further
infers that he was fully aware that the machines
had never been properly licensed. I am unable to
draw any credible conclusion from the expert reports
and testimony about what improper software was
installed on what computers, when and by whom. In
this regard, I also find it significant that Mr. Souza
described how, at times, he had installed what he
called “OEM” keys in some of the DPD computers,
from which I infer that, it is at least as likely as not
likely, that Mr. Souza’s tinkering, not Sgt. Condez ‘s
“activation patch” explained how such an OEM key
first got onto these machines. I also note that Mr.
Souza had access to the pre- release versions of
Windows 7 which would have enabled him to use
those versions until June 2010 before temporary
“nag screens” would start to appear. There is also a
dearth of evidence,

87

expert or otherwise, to explain how Office 2007 got
onto the Soares Computer and, hence, onto the
other upgraded machines.
For Mr. Condez’s part, I find it credible that
he was ordered to come up with a quick fix to an
emergency situation involving the Soares Computer
and to get the rest of the machines upgraded to
Windows 7 ASAP. He does not dispute that he used
an “activation patch” to work around whatever
problem he found. I also find it credible that he
would have expected Mr.
Souza to take care of the follow-up licensing
requirements and that it was not unreasonable for
him to have made that assumption. I also find that
Sgt. Condez cannot be faulted for failing to followup with Mr. Sousa to ensure that he did his job as
the IT Director properly. Finally, the
preponderance of evidence does not support a
conclusion that Sgt. Condez acted with the
necessary intent to violate the federal criminal
copyright infringement law, which, requires,
among other things, that the offender acted
“willfully” and “for purposes of commercial
advantage and private financial gain”. See 17
U.S.C.§506(a). While I agree that his behavior
during the investigatory interviews was, at times,
coy and discourteous and probably crossed the line of
conduct defined by Rule 650.00, his responses, as a
whole, were generally consistent with his position
that he only knew what he had done, and did not
know, and would not speculate about, what others
may have done.
As to the March 2013 computer interruption,
Sgt. Condez’s sarcastic comment that he “shut [the
product keys] down at Microsoft” has little weight
in assessing what actually happened. There was no
evidence to show that this was even possible and

88

Mr. Condez had no apparent motive to have done
so and then admitted it immediately. Indeed, the
trial of his pending contempt action was scheduled
for later that month and I find it quite implausible
that Sgt. Condez would be engaging in sabotage on
the eve of that event. On the other hand, Mr.
Souza, who had direct and ultimate responsibility
for the computers, by his actions, showed that he
knew exactly what the problem was and feared
that the consequences would fall on his shoulders.
He was probably particularly vulnerable to
criticism having just been through the
failed efforts to upgrade the DPD’s RMS/CAD
systems with Enforsys and he had never taken the
necessary steps to confirm the legitimacy of the
product keys or implement the necessary security
measures that would fully restrict administrative
access to the DPD computer system to him and the
only other authorized DPD user.
Neither of the two theories for how Sgt.
Condez might have caused the computer disruption
was established. As Sgt. Condez never had remote
access to the DPD’s network, the first theory, use of
a SLMGR tool, fails. The second theory, the use of
local login, was never tested and the evidence did
not establish whether or not it would work.
Furthermore, this theory highlights the lack of
security that was present under Mr. Souza’s watch.
I am also troubled by the evidence that
Dartmouth either erased or did not attempt to look
for potential physical evidence of wrongdoing by Sgt.
Condez. Mr. Souza “flattened” all the DPD hard
drives in October 2013, thus eliminating the
opportunity to discover exactly who had accessed
those computers and what might have caused those
computers to fail. I do not find Mr. Souza credible
when he stated he did so to “stop the rumor mill” and
keep Sgt. Condez, then on administrative leave, from
89

getting into the DPD computers through a “back
door”. In addition, DPD had surveillance cameras
that would have recorded any activity that would
have confirmed who had logged on to the booking
room and interview room computers when they first
went down. These cameras recorded for three weeks
before they were overwritten but they were never
examined or preserved.
In sum, I conclude that the twentyeight Charges and Specifications regarding
the computer upgrade and disruption have
not been proved.
Untruthfulness at December 20, 2013 Polygraph
Examination
On December 20, 2013, Sgt. Condez arrived at
DPD Headquarters for his previously scheduled
polygraph examination. Prior to his arrival, he
discovered that the polygraph examination was going
to be administered by a civilian whom Sgt. Condez
believed was not lawfully empowered to conduct the
test. Sgt. Condez entered the station holding a rolled
up piece of paper in his hand, an application he had
drafted to seek a temporary restraining order in
court to prevent the polygraph examination.
Dartmouth charged that Sgt. Condez violated the
DPD rules for truthfulness and conduct unbecoming
an officer when, on December 20, 2013, he allegedly
told Chief Lee and Deputy Szala that he held a
restraining order that prohibited the DPD to require
that he submit to the polygraph test that he had been
ordered to take that day.
The preponderance of the evidence fails to establish
either charge.
First, there is no written record of the

90

interchange in the DPD lobby between Sgt. Condez
and Deputy Chief Szala or of the interchange
between Sgt. Condez and Chief Lee upstairs just
before taking the polygraph test. The evidence does
establish that Deputy Chief Szala had at least two,
and probably three, conversations with Sgt. Condez
in the lobby. This sequence is corroborated by Chief
Lee’s testimony (that Al Donovan also seemed to
recall) that, after Deputy Chief Szala first appeared
upstairs after seeing Sgt. Condez in the lobby, Chief
Lee directed him back down to ask if Sgt. Condez had
a restraining order and when Deputy Chief Szala
returned to say that he did not have such an order,
Deputy Szala was directed to bring Sgt. Condez
upstairs, which he did. This shuttling back and forth
is most consistent with the recollections of Sgt.
Condez and Sgt. Lake (a totally disinterested
witness), both of which confirmed that Sgt. Condez
made it clear in the lobby that he only had an
application for a TRO, not a court order and Chief
Lee knew that before Sgt. Condez arrived in the
room.
Second, the interchange between Chief Lee
and Sgt. Condez upstairs lasted only seconds. I do
not find it plausible that, in that brief interval, Sgt.
Condez would claim that he had a court order in his
hands, when he had just reported to Deputy Chief
Szala that he did not have such an order, and then,
promptly retract the statement. It is not disputed
that, almost immediately, Sgt. Condez reiterated
that he did not have a court order but was going to
court to get one, and, when that did not satisfy Chief
Lee, Sgt. Condez immediately submitted to the
polygraph test. Deputy Chief Szala, a percipient
witness to both the encounters, and the only witness
who could have clearly put both pieces of this
incident together, did not testify. I infer that his
testimony would have supported what the
91

preponderance of the other evidence infers, that Sgt.
Condez did not intend to, and did not deceive Chief
Lee on December 20, 2013.
Third, insofar as there is no written record or
statement regarding this incident, the evidence of
whatever Sgt. Condez allegedly may or may not
actually have said, or doubts about his veracity,
remains inconclusive. This fact, alone, that the
exchange was entirely oral, makes problematic any
charge of “untruthfulness” under DPD General Order
650.00 (for “knowingly or with reckless disregard for
the truth sign any false official statement or report
[,] commit perjury, or give false testimony before any
court, board, or commission, or in any judicial or
administrative hearing”) The preponderance of the
evidence does not support Dartmouth’s charge of
untruthfulness. See generally, Keating v. Town of
Marblehead, 24 MCSR 334 (2010)
(“Given the potentially career-ending consequences
of finding that a police officer has been untruthful,
the fact finder’s decision regarding alleged
untruthfulness . . .should be made with the

92

highest degree of objectivity and supported by a
preponderance of the evidence”); Robichau v. Town of
Middleborough, 24 MCSR 352 (2011) and cases cited
(same)
Fourth, the evidence showed that the conduct
amounted, at most, to a misunderstanding or
momentary breakdown of communications between
police officers in a private meeting in which the
adversarial relationship between the officers was
self-evident. There is no claim that, even in that
environment, Sgt. Condez was discourteous or
insubordinate.
In sum, Dartmouth has not shown how
anything Sgt. Condez did on December 20, 2013 or
said to Chief Lee at that time rose to the level of
“conduct unbecoming an officer” in violation of DPD
General Order 670.00 (“any specific act or acts of
immoral, improper, disorderly or intemperate
personal conduct, which reflects discredit upon the
officer himself, upon his fellow officers or upon the
police department”). Charge 1, Specifications 1 & 2
(Truthfulness) and Charge 2, Specifications 1 & 2
(Conduct Unbecoming an Officer) are not proved.
Criminal Accusation of Child Abuse Against Chief Lee
Dartmouth charged that Sgt. Condez’s June 5,
2014 letter to the Dartmouth Select Board, and his
subsequent actions in furtherance of the assertions
made in that letter, also violated General Order
670.00, prohibiting “Conduct Unbecoming an
Officer.” Here, Dartmouth is on solid ground. It is
hard to imagine behavior that comes any closer to
the intent of General Order
670.00 than does Sgt. Condez’s willful, intemperate
and wholly unsubstantiated accusations against
Chief Lee of felonious conduct by alleging, in what
amounts to a public accusation of child neglect and
93

sexual exploitation by Chief Lee of his only, wholly
innocent, son. I conclude that Sgt. Condez’s
accusations amount to conduct unbecoming an
officer. I also find that his accusations were
retaliatory. Finally, I conclude that Sgt. Condez
repeatedly lied, misled, concealed and destroyed
evidence in order to further his unbecoming and
retaliatory behavior.
First, Sgt. Condez’s June 5, 2014 letter shows
an utter disregard for the truth as he tries to
deceptively portray Chief Lee as a suspected, active,
serial sexual predator. The letter states that the
photos were found on “Timothy Lee’s personal laptop”
and “are more accurately, possible evidence of abuse
or sexual exploitation of an [unnamed] child by him”,
when Sgt. Condez knew the laptop belonged to Chief
Lee’s wife and knew the pictures were her family
mementos, not his, taken by her of their infant son.
Furthermore, Sgt. Condez notes that the pictures
were taken with the “same camera” by an unnamed
photographer, that some of them were taken “out of
state” and twice suggests that there could be “other
victims”, when he knew that all the pictures were
“family photos” taken in the Lee home, that the only
child in the pictures was the Lees’ son, and there was
not a shred of evidence of any other “victims.”
Moreover, given the age of the child in the pictures
(an infant about one year old in the most of the
photos), Sgt. Condez knew that many years had
elapsed since any of the allegedly offending pictures
had been taken and there were hundreds of other
photos of the child in the collection taken since then
with no evidence introduced of additional recentlytaken nude pictures of the child. Finally, one of the
two photos that Sgt. Condez submitted with the
private area covered in black, in its unedited form,
shows the infant child submerged in the bathtub

94

among his bath toys with none of his private parts
visible.
Unlike the brief exchange in the the heat of the
moment in the polygraph room, I cannot attribute the
misleading content of Sgt. Condez’s letter simply to
poor choice of words or inattention. I do not accept his
argument that he merely wanted to raise a concern
but had not actually thought he was accusing Chief
Lee of being a sexual predator. Indeed, a person who
sees no harm in using innuendo as a surrogate for
direct defamation has no business in an occupation
whose mission is to “protect and serve.” An appointing
authority is justified to terminate a police officer for
conduct unbecoming who repeatedly demonstrates his
“willingness to fudge the truth”. See City of
Cambridge v. Civil Service Comm’n, 43 Mass. 300,
303 (1997) (“The city was hardly espousing a position
devoid of reason when it held that a demonstrated
willingness to fudge the truth in exigent
circumstances was a doubtful characteristic for a
police officer. . . . It requires no strength of character
to speak the truth when it does not hurt.”) See also
Everton v. Town of Falmouth, 26 MCSR 488 (2013)
and cases cited, aff’d, SUCV13-4382 (2014);
Gonsalves v. Town of Falmouth and cases cited, 25
MCSR 231 (2012), aff’d, SUCV12- 2655 (2014);
Keating v. Town of Marblehead, 24 MCSR 334 (2011)
and cases cited.
Second, Sgt. Condez showed no regard for the
safety or privacy of the alleged “victim”. His lack of
sensitivity to the harm this choice of action could
cause to an innocent child, let alone to Chief Lee and
his wife, is astonishing. Sgt. Condez knew the
identity of the “victim”, yet did not conceal the child’s
face in the pictures he found so “disturbing”. He
knew that, as a mandated reporter, he could have
(although not required to have) made an immediate,

95

direct confidential report to DCF. See Garney v.
Massachusetts Teachers Retirement System, 469
Mass. 384, 386 (2014). Instead, he picked the
unconventional approach and went public with his
accusations through the Dartmouth Select Board.15 In
so doing, he chose, intentionally or recklessly, to put
his own interests ahead of the rights of the “victim”
and the alleged “predator” under Section 51A.
Third, at best, Sgt. Condez has made a veiled
attempt to use G.L.c.119,§51A as a cover for a
personal, ulterior motive. There is no explicit
reference to Section 51A or call for the Select
15 Sgt. Condez argued that, by making a report to the Select
Board, he was also making an alternative Section 51A report,
which Dartmouth strenuously disputed. While G.L.c.119,
§51A(a) (2nd sentence) does provide for alternative reporting by a
“member of [a] public institution” to “the person or designated
agent in charge of the institution” for further reporting to DCF, I
read that provision to apply to “institutions” such as schools who
have care and custody of children, but not to a municipal police
department. Even were I to find that Sgt. Condez had good
reason to construe the statute otherwise, which I do not believe,
his choice of a questionable solution in lieu of the well-known
acceptable one, shows a serious lapse of judgment on his part
that I would not expect from a police officer.

96

Board to take any action “in the best interest of
the child” which is the “guiding principle” behind
Section 51A statutory reporting. cf.
Commonwealth v. Adkinson, 442 Mass. 401, 419
(2005) (describing the role of DCF under
G.L.c.119,§51A) Rather, the allegation of abuse (as to
which he belatedly asserts both a statutory and First
Amendment right to make) was ancillary to the main
theme expressed in the letter, which was to have the
Select Board target disciplinary action against Chief
Lee or face public embarrassment and legal liability of
their own and, thus, take the heat off his own
disciplinary issues that were coming to a head:
“These photos have been provided to
the Select Board in a redacted form so
they are aware of this serious issue
prior to it coming to them from an
outside source. It is particularly
disturbing to me and I’m sure it will be
to the public . . .”
This is being shared with the Select
Board in their role as Police
Commissioners and based on their duty
to supervise the Chief of Police I’m sure
I don’t have to explain . . . the duty of
the Select Board I don’t have to go into
great detail as to the consequences for
the Town should other victims be
discovered given that the Town now has
knowledge of the situation.”
I also cannot disregard his (former) counsel’s
statement that “you will get to see the photos in the
public hearing when they are offered in poster size as
exhibits,” a claim Sgt. Condez never disavowed and
which seems to parrot what was implicit in his own
behavior, particularly the statements in his letter and
97

his subsequent decision (see below) to “forensically
wipe” the “contraband” from his scratch drive, thus,
destroying a key chain of evidence in any possible case
against Chief Lee, another indication that the “best
interests the child” was clearly not what he had on his
mind.
The timing of Sgt. Condez’s actions also
illustrates an ulterior motive, coming the day after
he learned that all efforts to keep postponing his
disciplinary hearing had been exhausted. By his own
admission, Sgt. Condez had known of the
“disturbing” photographs and the allegedly potential
liability they posed for some time, claiming he first
saw them when he started to “wipe” his stack of
“scratch drives” in May 2014. Yet he chose to take no
action and did not report the “disturbing” discovery
for another month. I heard no credible explanation
for the unusual coincidence in timing other than the
logical inference that it was meant to throw sand in
the gears of the pending investigation of Sgt.
Condez’s own alleged misconduct and I conclude that
was the primary, and probably sole, motive for his
decision to send the June 5, 2014 letter.
Fourth, I do not believe Sgt. Condez’s
explanation that he only discovered the “disturbing”
photographs by accident in May 2014 in the course of
a routine review of his scratch drive discard pile,
some two years after his initial work on the laptop
and eight months after being placed on
administrative leave, and then waited until July
2014 to copy the files onto a DVD because he did not
want to be in possession of “contraband”, and, only
then, innocently wiped the original scratch drive
along with all others then in the discard pile. By
wiping the scratch drive, Sgt. Condez obliterated any
possible chance that a forensic analysis of the drive
would have recovered the history of the files,
something that would have been an invaluable asset
98

to him in the pending Massachusetts State Police
investigation. His actions in forensically wiping the
scratch drive, despite knowing that the State Police
wanted to examine it, warrants the adverse inference
that, had he delivered an unaltered scratch drive to
the State Police, it would have revealed information
that Sgt. Condez had again “fudged the truth” about
the charges against Chief Lee and did not want the
State Police to know. While such an adverse
inference is warranted, it is not necessary to my
conclusion because, by wiping the scratch drive, Sgt.
Condez knew, or acted in reckless disregard for, the
fact that he was altering evidence known to be
relevant to an ongoing criminal investigation and
what he, himself, called “contraband”. Such cavalier
treatment of evidence, whether inculpatory or
exculpatory, is more than unbecoming a police
officer; it is unconscionable.
Fifth, I have also carefully considered Sgt.
Condez’s claim that, despite any of the above
transgressions, he cannot be disciplined because he
acted solely out of “good faith” belief that the
photographs he saw contained evidence that could
reasonably be construed to present “reasonable
cause” for a mandated reporter to make a Section
51A report, and that such conduct is protected by (a)
the whistleblower provisions of Section 51A(h), or
alternatively, (b) as free speech under the First
Amendment to the U.S. Constitution. I find that
argument to be without merit on the facts and the
law.
Section 51A Reporting & Immunity
G.L.c.119,§51A(a) requires reporting to the
Department of Children & Families (DCF) certain
particulars (as enumerated in G.L.c.119,§51A(d))16,
obtained “in his official capacity” by a “mandated

99

reporter” (defined to include a police officer), and
permits reporting of such
particulars by any other person, who:
“. . . has reasonable cause to believe that a
child is suffering physical or emotional
injury resulting from: (i) abuse inflicted
upon him which causes harm or
substantial risk of harm to the child’s
health or welfare, including sexual
abuse; . . . or (iv) being a sexually
exploited child; . . . .” (emphasis added)
A “sexually exploited child” is defined as any person
under the age of 18:
“. . . who has been subjected to sexual
exploitation because such person: (1) is the
victim of the crime of sexual servitude . . .
;(2) engages, agrees to engage, or offers to
engage in sexual conduct with another
person in return for a fee . . .; (3) is a victim
of the crime, whether or not prosecuted, of
inducing a minor into prostitution . . . ; or
(4) engages in common nightwalking or
common streetwalking . . .
G.L.c.119,§21 (emphasis added).
Sgt. Condez argues that he acted “in good
faith” as a “mandated reporter” when he wrote his
letter to the Select Board, and made his subsequent
Section 51A Report to DCF, and,
16 The report filed must contain the names and addresses of the

child and the adults responsible for the child’s care, as well as the
child’s age, sex, extent of injuries or abuse and other relevant
information.

100

therefore, his conduct is immune from discipline by
virtue of G.L.c.119, §51A(h):
“No employer shall discharge,
discriminate or retaliate against a
mandated reporter who, in good faith,
files a report under this section. ..........................
Any employer who [violates
this section] shall be liable to the
mandated reporter for treble damages,
costs and attorney’s fees.”
This argument is flawed for numerous reasons.
First, even Sgt. Condez does not contend (and
clearly has no basis to contend) that the
photographs themselves, or any other evidence,
suggests, let alone presents “reasonable cause” to
believe, that Chief Lee’s son is a “sexually exploited
child” within the very narrow statutory
definition of that term. His argument hangs on the
premise that the photographs, in effect, were a
felonious act of “sexual abuse” of Chief Lee’s son,
specifically, the unlawful “possession” of a picture of
his child engaged in “sexual conduct”, prohibited by
G.L.c.272, 29C.17 To make out an offense, the statute
requires a “knowing” possession of a picture showing
a child engaged in some form of specific sexual
conduct, including intercourse, oral or anal sex,
bestiality, sexually sadistic or other “lewd
exhibition” of a child’s sexual organs. “Mere nudity”
does not suffice.
E.g., Commonwealth v. Rex, 469 Mass. 36, 43-44
(2014) and cases cited. 18 The pictures that
Sgt. Condez said he found most disturbing, and the
others introduced in evidence, all involve a pre-

101

pubescent male between the ages of one to four (well
below the so-called “Coppertone age”), either taking a
bath or having just emerged from one, snapped by
the child’s mother. None show a child engaged in any
form of actual or simulated sexual conduct. Many do
not show the child’s
17 Other criminal statutes associated with child pornography
require “dissemination” and/or specific “lascivious intent”,
among other things, and are not remotely implicated here. E.g.,
G.L.c.272,§29 (possession “with lascivious intent” to disseminate
material known to be obscene); G.L.c.272, §29A. (knowingly
permitting a child “to pose or be exhibited” nude with “lascivious
intent”);G.L.c.272,§29B (possession “with lascivious intent to
disseminate”) See also G.L.c.272,§31 (Massachusetts equivalent
of the “Dost” factors, which define “lascivious intent” as “a state
of mind in which the sexual gratification or arousal of any person
is an objective”)
18 In this regard, I take administrative notice of the work of the

19th century painter, Mary Cassatt, who was known for
numerous portraits of nude children, some of which now hang in
nationally-renowned art museums as an illustration of the type
of portrayal of “mere” child nudity that is not pornographic.

102

genitalia at all. These pictures are far different from
any pictures showing a child engaged in the form of
sexual “activity” that has been held to fit the
definition of a “lewd exhibition” of a child. See
Commonwealth v. Rollins, 470 Mass. 66 (2014) (two
children in sexually suggestive poses
and facial expressions touching each other; a girl
posed in an unnatural manner in front of a mirror,
exposing both sides of her entirely naked body);
Commonwealth v. Sullivan, 82
Mass.App.Ct. 293, rev.den., 463 Mass. 1112 (2012) (21 decision) (photo downloaded from a
Russian-based website by a Level 3 sex offender
showing an adolescent girl posed to focus on her
developing breasts and pubic area); cf.
Commonwealth v. Rex, 469 Mass. 36 (2014)
(inmate’s possession of photos of naked man with
group of naked boys clipped from National
Geographic Magazine was not unlawful, despite
DOC rule that all depictions of nudity were
prohibited); Commonwealth v. Bean, 435 Mass. 708
(2002) (overturning conviction for lack of
“lascivious intent” of an “aspiring photographer” who
enticed a female minor and her boyfriend to
participate in a “photographic shoot” during which
they “posed” in various stages of undress, eventually,
taking one photo of them embracing with one of her
breasts exposed)
Second, Sgt. Condez made a seriously
troubling decision, after allegedly “researching” the
subject, to act on the assumption that “reasonable
cause” to believe that a child “is suffering” from
sexual exploitation or abuse is measured by what
Sgt. Condez might personally find “disturbing”.
“Reasonable cause”, albeit a “threshold”
determination, nevertheless, requires a

103

consideration of the “collection of facts, knowledge or
observations which tend to support or are consistent
with the allegations, and when viewed in light of the
surrounding circumstances and credibility of
persons providing information, would lead one to
conclude that a child has been abused or neglected.”
See 110 CMR 4.32(2) cited in B.K. v. Department of
Children and Families, 79 Mass.App.Ct. 777, 780
(2011) Evidence must exist that actual abuse has
occurred or that there is a proven “substantial risk”
of future harm to a child. See 110 CMR 2.00 cited in
Cobble v. Commissioner of DSS, 430 Mass. 385
(1999) (DSS lacked “reasonable cause” to support a
claim of abuse for spankings of nine-year old with
belt that left temporary marks on his buttocks) See
also, Care and Protection of Robert, 408 Mass. 52
(1990) (discussing standard of proof required at
various stages of DCF proceedings)
Moreover, whether or not Sgt. Condez found the
pictures in question personally “disturbing” is not a
basis on which to judge whether his actions were
lawfully appropriate for a police officer. The proper
question is whether Sgt. Condez acted within the
authority permitted under the facts and the law. As a
matter of law, Sgt. Condez’s “subjective reaction to the
photograph was not relevant . . . to the lewdness of the
photograph itself.” See Commonwealth
v. Sullivan, 82 Mass.App.Ct. 293,309 rev.den., 463
Mass. 1112 (2012). Rather, the determination of what
crosses the line from protected First Amendment
expression and becomes criminal activity rests,
ultimately, with the judiciary as gatekeeper of the
constitutional rights of citizens, as to which the courts
must make an independent, de novo review. See, e.g,,
Commonwealth v. Rex, 469 Mass. 36, 41-42 (2014)
(“We noted in Bean [v. Commonwealth,

104

435 Mass. 706 (2002)] that ‘[t]he fact finder is in no
better position to evaluate the content and
significance of these photographs than an appellant
court.” [citation] . . . Unlike testimony from a witness,
an objective analysis of tangible evidence such as
photographs requires no credibility determinations,
rendering de novo review appropriate”).
The serious consequences that would flow
from Sgt. Condez allowing his personal “revulsion” –
rather than an objective, informed judgement – to
drive this exercise was aptly described by Justice
Milkey in his well-reasoned dissent in
Commonwealth v. Sullivan, 82 Mass.
App.Ct. 293, 310, 312-313, 327-28 (2012),
subsequently cited in Commonwealth v. Rex, 469
Mass. 36, 41 note 11 (2014), and worth repeating
because it resonates so clearly with the present
matter. Justice Milkey wrote:
“Few things are as vile as the sexual abuse of
children. It is therefore understandable that
we, as a society, would implement severe
measures to try to prevent such abuse from
occurring. But when we imprison someone for
mere possession of a photograph of a child
playing on a beach, we have lost all
perspective.
...
“The photograph has a distinct “snapshot’
quality to it . . . the jury did not know if this
was a vacation photograph taken by a
member of the girl’s family, or if it was
instead surreptitiously captured by a
stranger. The defendant downloaded the
photograph from a Russian photographsharing Web site . . . that included what
appeared to be ‘a lot of vacation photographs.’
...
“As the prosecutor affirmatively conceded
105

below, ‘there is certainly no sexual activity in
this picture’ . . . the Commonwealth’s new
theory is that the photograph is accidentally
lewd. . . . [W]hether the defendant found this
photograph lewd is not the test. “If . . .
subjective reaction were relevant, a sexual
deviant’s quirks could turn a Sears catalogue
into pornography.” [citation] . . . [T]he
applicable test is whether the photograph
sexualizes its portrayal of . . . nudity in an
objective and sufficiently material way to
warrant a criminal conviction merely for
possessing it. While the photograph need not
be ‘obscene’ . . .it still has to be so noxious that
one commits a felony merely by holding
the photograph in one’s hand. This
photograph does not come even close to
meeting that test. Indeed, it is not clear how
any photograph that is at most subtly
sexually suggestive could ever be deemed
‘lewd’ beyond a reasonable doubt. The
photograph cannot fairly be described as a
permanent record of the girl being subjected to
sexual abuse or exploitation; rather it is a
permanent record of her playing in the sand
But the question before us is not whether
whoever took the photograph broke the law
in whatever jurisdiction this occurred. The
question instead is whether the harm
inflicted by the continued existence of the
photograph is so substantial as to support
treating its mere possession as a crime……
“The need for an independent judicial role is
particularly acute in cases when the
expression at issue involves a photograph of a
naked child . . . [W]hen an individual actively
pursues [conduct] crossing the boundary into
objectively criminal behavior that exploits
106

children, . . . can and should warrant severe
criminal sanctions. However, where the
individual has not crossed the line . . . the
government ‘cannot constitutionally . . . .
becom[e] an instrument for the suppression of
. . . unpleasant
expression.’ “
Id. (emphasis added).
Third, Sgt. Condez cannot inoculate his
serious lapse of judgment in going public with a
frivolous claim against Chief Lee, exposing both
him and his family to public ridicule by claiming his
behavior is protected under the “mandated
reporter” immunity statute or as “citizen speech”
protected by the First Amendment. Clearly, Sgt.
Condez cannot have it both ways; if he acted as a
“mandated reporter” under Section 51A his actions
cannot constitute “citizen speech” when they arise
in connection with his responsibility as a police
officer to report abuse. See Pereira v. Commissioner
of Social Services, 432 Mass. 261 (2000) and cases
cited. See also, Lane v. Franks, -- U.S. --, 134 S.Ct.
2369, 2383-84 (Thomas, Scalia & Alito concurring)
(although giving “truthful” testimony against an
employer generally is protected “citizen speech”,
whether a public employee, such as a police officer,
whose “ordinary job duties” call for them to testify is
a “quite different question”) Moreover, Section
51A(h) applies to confidential reports made with
“reasonable cause” pursuant with the statute. Here,
Sgt. Condez made a public report that did not
comply with the statute without “reasonable cause.”
In sum, Dartmouth has proved by a
preponderance of the evidence Charge 9 set forth in
the Charge Letter, establishing that Sgt. Condez

107

has committed “acts of immoral, improper,
disorderly or intemperate personal conduct which
reflects discredit upon the officer himself, upon his
fellow officers [and] upon the police department”
RECOMMENDED DISCIPLINE
Sgt. Condez’s long career with the DPD, during
which he has performed on many occasions with
distinction, including as president of his Union, is
duly noted. Sadly, however, these distinctions and
mitigating factors do not justify retaining him in the
face of the serious lapses of judgment and
untruthfulness that were proved in this case and
brought irreparable damage to his credibility and to
the reputation of his fellow officers and the DPD.
After careful consideration, for the reasons expressed
above, based on the preponderance of credible
evidence presented at the hearing, I recommend that
the Commission approve the termination of Sgt.
Condez as a police officer with the DPD, effective as
of the date of this Decision. Civil Service
Commission.
/s/ Paul M. Stein

Paul M. Stein Commissioner

By a vote of the Civil Service Commission (Bowman,
Chairman, Ittleman, McDowell, and Stein,
Commissioners) on October 15, 2015, the
Commission voted to adopt the recommendations and
voted unanimously to order the termination of the
Appellant, effective on the date of this Decision
Either party may file a motion for reconsideration
within ten days of the receipt of this Commission
order or decision. Under the pertinent provisions of
the Code of Mass. Regulations, 801 CMR 1.01(7)(l),

108

the motion must identify a clerical or mechanical
error in this order or decision or a significant factor
the Agency or the Presiding Officer may have
overlooked in deciding the case.A motion for
reconsideration does not toll the statutorily
prescribed thirty-day time limit for seeking judicial
review of this Commission order or decision.
Under the provisions of G.L c. 31, § 44, any party
aggrieved by this Commission order or decision may
initiate proceedings for judicial review under G.L. c.
30A, § 14 in the superior court within thirty (30)
days after receipt of this order or decision.
Commencement of such proceeding shall not, unless
specifically ordered by the court, operate as a stay of
this Commission order or decision. After initiating
proceedings for judicial review in Superior Court, the
plaintiff, or his / her attorney, is required to serve a
copy of the summons and complaint upon the Boston
office of the Attorney General of the Commonwealth,
with a copy to the Civil Service Commission, in the
time and in the manner prescribed by Mass. R. Civ.
P. 4(d).
Notice sent to:
Jack Canzoneri (for Appellant)
Dennis M. Coyne, Esq. (for Appellant) Leonard H.
Kesten (for Respondent) Evan C. Ouellette, Esq.(for
Respondent)

109

COMMONWEALTH OF MASSACHUSETTS
SUFFOLK, SS.

CIVIL SERVICE COMMISSION
One Ashburton Place - Room 503
Boston, MA 02108
(617) 727-2293

FRANK CONDEZ,
Appellant
v.
TOWN OF DARTMOUTH,
Respondent

Docket No.: D-14-192

CORRECTIONS TO DECISION (10/19/2015)
The Commission’s Decision dated October 15, 2015 has
been revised to eliminate typographical errors and the
following corrections:
Finding 5, second sentence: revise second sentence to read: “David
Cressman is the Dartmouth Town Administrator and the
Dartmouth Select Board is the DPD Appointing Authority.”
Finding 27, line 6 – revised to read “needed to access the network”
Finding 34, line 2 – “&” revised to “7”
Finding 39, line 2 delete “as August 1, 2009”
Finding 88, line 2 – “Microsoft Office 7” revised to “Microsoft
Office 2007” Finding 95, line 3 – revised to read “Finding of Fact
No. 51”
Finding 97, lines 2-3 – revised “the Appellant” to read “Sgt.
Condez” Finding 106, line 4 – revised to read “take the polygraph
or he“
Finding 107, footnote, line 2 – revised to read “the decision to
seek to terminate . . . “ Finding 129, line 1 – revised to read
“Section 51A”
Finding 143, line 7 – revised to read “photos of the child” Page 38,
para. 1, lines 1-2 – revised “twenty-eight” to read “thirty-three”
Page 40, para. 1, lines 6-7 “revised first “twenty-nine” to read
“twenty-eight” and delete second “twenty-nine”
110

Page 44, line 1 – revised to delete “twenty nine”
Page 54, para.2, line12 – revised “appellant” to read
“appellate”

111

COMMONWEALTH OF MASSACHUSETTS
THE TRIAL COURT
SUPERIOR COURT DEPARTMENT
BRISTOL, ss.
_____________________________________
Civil Action No. 1473CV00836
FRANK CONDEZ,
Plaintiff
v.
TOWN OF DARTMOUTH and
LEONARD H. KESTEN,
Defendants
_________________________________________
CONSOLIDATED WITH
__________________________________________
Civil Action No. 1673CV00796
FRANK CONDEZ,
Plaintiff
v.
CIVIL SERVICE COMMISSION and
TOWN OF DARTMOUTH
Defendants
____________________________________________
MEMORANDUM OF DECISION AND ORDER ON
CROSS-MOTIONS FOR JUDGMENT ON THE
PLEADINGS CONCERNING DECISION OF THE CIVIL
SERVICE COMMISSION
112

The plaintiff, Frank Condez, brought civil action#
1673CV00796 pursuant to G.L. c. 31, § 44 and G.L. c. 30A, §
14, seeking judicial review of a decision of the Civil Service
Commission terminating his employment as a police
sergeant for the town of Dartmouth. The parties have filed
cross-motions for judgment on the pleadings pursuant to
rule 12 (c) of the Massachusetts Rules of Civil Procedure
and Superior Court Standing Order 1-96.
FACTS
In reviewing a decision of an administrative agency,
the court's review of the issues "shall be confined to the
record...." G.L. c.30A, § 14(5). "The reviewing court is,
therefore, bound to accept the findings of fact of the [civil
service] commission's hearing officer, if supported by
substantial evidence." City of Leominster v. Stratton, 58
Mass. App. Ct. 726, 728 (2003). City of Beverly v. Civil
Service Commission, 78 Mass. App. Ct. 182, 188 (2010).
The record shows that the town of Dartmouth
accused Sgt. Condez of four incidents of misconduct relating
to: (1) an upgrade of the police department's computers in
2010; (2) a disruption of the police department's computers
in 2013; (3) a polygraph examination of Sgt. Condez in 2013
concerning an investigation of a missing firearm; and (4)
accusations of child abuse against Police Chief Timothy
Lee.
By agreement of the parties, a commissioner of the
Civil Service Commission (rather than the appointing
authority) held a hearing on the charges pursuant to G.L. c.
31, § 41A The commissioner made extensive findings of
fact, which the Commission adopted on October 15, 2015.
The following is a summary of the facts adopted by the
Commission that are pertinent to this appeal.
In 2012, Condez was employed as a police sergeant in
the town of Dartmouth, He also operated a side business
repairing computers, The chief of police, Timothy Lee,
brought his wife's laptop computer to Condez for repair.
113

Condez repaired and returned the computer but kept a copy
of the data that was on Chief Lee's computer.
On October 1, 2013, Sgt. Condez was placed on paid
administrative leave due to an investigation involving
unlicensed software on the police department's computers.
Charges of misconduct were brought against Sgt. Condez
and a hearing was scheduled before his appointing
authority. After an initial continuance, a hearing was
scheduled for June 9, 2014. On June 4, 2015, Sgt. Condez'
attorney sought a second continuance to a date after July 1,
2014. The town's attorney responded that the hearing
would not be continued beyond June 17, 2014. However, the
hearing never took place due to subsequent developments.
On June 6, 2014, Sgt. Condez hand delivered the
following letter to the town administrator.
Frank Condez
543 High Hill Road
North Dartmouth, MA 02747
Town of Dartmouth Selectboard
C/O David Cressman, Town Administrator 400
Slocum Road
Dartmouth, MA 02747 Dear Mr. Cressman,
June 5, 2014
Dear Mr. Cressman,
Attached are the photos which were recently
discovered when initially recovered from
Timothy Lee's personal laptop which was
given to me by him to be serviced for a failing
hard drive. The metadata encoded in these
photos tie them to the same brand and model
of digital camera used to take numerous other
family photos. These are only two of multiple
114

photos of this nature. There is also a
possibility that some of the photos were taken
out of state. The photos can, at best, be
described as disturbing. They are more
accurately, possible evidence of abuse or
sexual exploitation of a child by him and could
be indicative of serious liability for the Town
should other victims be discovered. This is
being shared with the Select Board in their
role as Police Commissioners and based on
their duty to supervise the Chief of Police.
These photos have been provided to the Select
Board in a redacted form so they are aware of
this serious issue prior to it coming to them
from an outside source. It is particularly
disturbing to me and I'm sure it will be to the
public as a whole that someone in a position of
public trust would be involved and or condone
this type of conduct. I'm sure I don't have to
explain the severity of something such as this
and the duty of the Select Board to investigate
something as serious as this. I will be happy
to provide all of the original evidence to
whatever entity or outside police agency the
Select Board decides to have investigate this
matter. Given the serious nature of the issues
here I don't have to go into great detail as to
the consequences for the Town should other
victims be discovered given that the Town now
has knowledge of the situation. Thank you for
your prompt attention to this matter.
Very Truly Yours,
s/ Frank Condez
Frank Condez
Administrative Record, Vol II, p. 646.

115

Sgt. Condez included with the letter two photographs
of Chief Lee's infant son naked in a bathtub. Sgt. Condez
redacted the photographs to cover the child's genital area
but not his face.
On learning of the letter, Chief Lee contacted the
Bristol District Attorney's Office and demanded that the
District Attorney investigate him. The District Attorney
assigned two State Police troopers to investigate Chief Lee.
The town hired Attorney Robert Pomeroy, a former Chief of
Police in Plymouth, to conduct its own investigation of
Chief Lee.
On July 1, 2014, Sgt. Condez and his attorney met
with Attorney Pomeroy but Sgt. Condez refused to speak to
him about the matter.
On July 3, 2014, Sgt. Condez filed a report with the
Department of Children and Families in which he stated
that Chief Lee had "neglect[ed]" his four year old son. Sgt.
Condez submitted copies of the photographs of the child
taken from Chief Lee's computer.· The Department
concluded that the report was not worthy of investigation
and closed the case a few days later.
On July 18, 2014, the internal affairs officer for the
police department notified Sgt. Condez by letter that Sgt.
Condez was the subject of an internal affairs investigation.
The letter also advised Sgt. Condez that Attorney Pomeroy
was conducting an investigation into the allegations Sgt.
Condez made in his letter to the Select Board. The internal
affairs officer directed Sgt. Condez to meet with Attorney
Pomeroy and provide him with "all original evidence" as
Sgt. Condez offered to do in his letter.
On July 24th, Sgt. Condez and his attorney again
met with Attorney Pomeroy and Sgt. Condez again refused
to speak to him. On advice of counsel, Sgt. Condez refused
to provide Attorney Pomeroy with the "original evidence" on
grounds that Attorney Pomeroy was not an appropriate
person to receive the evidence. ,Sgt. Condez said that he
would turn the evidence over to the State Police.
116

That same day, Sgt. Condez made a DVD copy of the
data he had copied from Chief Lee's computer. He then
"forensically wiped" the data from his own hard drive,
where the data had been stored. This eliminated important
metadata that had not been copied onto the DVD, such as
the dates files were created and accessed.
On July 28, 2014 the Select Board issued a letter to
Sgt. Condez advising him, pursuant to G.L. c. 31, § 41, of a
disciplinary hearing scheduled for August 12th to consider
numerous charges of misconduct against him. Charge 9
alleged a violation of a police department order prohibiting
"Conduct Unbecoming an Officer," defined as "[t]he
commission of any specific act or acts of immoral, improper,
disorderly or intemperate personal conduct, which reflects
discredit upon the officer himself, upon his fellow officers or
upon the police department." The letter included the
following "[s]pecification" of the charge:
In his June 5, 2014 submission to the Town of
Dartmouth Select Board, Sergeant Frank
Condez made baseless accusations of a
scurrilous nature against the Chief of Police
Timothy Lee, claiming that Chief Lee engaged
in deviant sexual criminal behavior with his
own child and suggesting there were other
"victims," with the additional insinuation that
the matter could become public. Condez did so
with the motive to embarrass the Chief of
Police and impede Condez' own disciplinary
hearing. These actions involved immoral,
improper and intemperate conduct,
constituting Conduct Unbecoming an Officer
in violation of the Dartmouth Police Rules and
Regulations.
Administrative Record, Vol. II, pp. 643-644.
On July 30, 2014, Sgt. Condez met with, and was
interviewed by, State Police troopers about the allegations
against Chief Lee. Sgt. Condez provided the State Police
117

with the DVD copy of the data copied from Chief Lee's
computer.
The commissioner who acted as hearing officer found
that the town proved that Sgt. Condez falsely accused Chief
Lee of committing child abuse; that he acted knowingly or
recklessly; and that he concealed evidence. The
commissioner found that Sgt. Condez' actions "were taken
with an ulterior motive to impede the investigation of the
original pending charges being pursued against him."
Decision, p. 39. Although the commissioner found that the
town had not proven any of the other charges against Sgt.
Condez, the commissioner recommended that the Civil
Service Commission terminate Sgt. Condez' employment as
a police officer.
On October 15, 2014, the Commission voted to adopt
the recommendations and to terminate Sgt. Condez'
employment.
ANALYSIS
"Judicial review of a final decision of the [civil
service] commission is governed by G.L.c. 30A, § 14 '[The
court] may set aside or modify the commission's decision if
[it] conclude[s] that "the substantial rights of any party
may have been prejudiced" by a decision that is based on
an error of law, unsupported by substantial evidence, or
otherwise not in accordance with the law.' …[The court]
generally defer[s] 'to the [commission] on questions of fact
and reasonable inferences drawn therefrom.'" Sherman v.
Town of Randolph, 472 Mass. 802, 810 (2015), quoting
Police Department of Boston v. Kavaleski, 463 Mass.
680,689 (2012).
Sgt. Condez contends that the Commission's decision
must be vacated because it was based on three errors of
law; two of its key findings of fact were not supported by
substantial evidence; and termination was too harsh a
remedy for his misconduct.

118

I.

Errors of Law

The plaintiff contends that the Commission
committed errors of law in ordering his termination from
employment because: (A) his letter to the Dartmouth Select
Board was protected speech under the First Amendment to
the United States Constitution; (B) as a mandated
reporter, his repo1i of child abuse was privileged under
G.L. c. 119, § 51A (h); and (C) the Commission improperly
based its decision on uncharged misconduct.
A.

First Amendment

Sgt. Condez argues that his letter to the Dartmouth
Select Board concerning Chief Lee was protected speech
under the First and Fourteenth Amendments to the United
States Constitution.
"[P]ublic employees do not surrender all their First
Amendment rights by reason of their employment. Rather,
the First Amendment protects a public employee's right, in
ce1iain circumstances, to speak as a citizen addressing
matters of public concern." Garcetti v. Ceballos, 547 U.S.
410,417 (2006).
"In Pickering v. Board of Education, 391 U.S. 563
(1968), [the Supreme Court] stated that a public employee
does not relinquish First Amendment rights to comment on
matters of public interest by virtue of government
employment. [The Court] also recognized that the State's
interests as an employer in regulating the speech of its
employees 'differ significantly from those it possesses in
connection with regulation of the speech of the citizenry in
general.' Id., at 568. The problem, [is] arriving 'at a balance
between the interests of the [employee], as a citizen, in
commenting upon matters of public concern and the
interest of the State, as an employer, in promoting the
efficiency of the public services it performs through its
employees."' Connick v. Myers, 461 U.S. 138, 140 (1983).
"Pickering and the cases decided in its wake identify
two inquiries to guide interpretation of the constitutional
119

protections accorded to public employee speech. The first
requires determining whether the employee spoke as a
citizen on a matter of public concern If the answer is no,
the employee has no First Amendment cause of action
based on his or her employer's reaction to the speech, , , , If
the answer is yes, then the possibility of a First
Amendment claim arises. The question becomes whether
the relevant government entity had an adequate
justification for treating the employee differently from any
other member of the general public. , .. This consideration
reflects the importance of the relationship between the
speaker's expressions and employment. A government
entity has broader discretion to restrict speech when it acts
in its role as employer, but the restrictions it imposes must
be directed at speech that has some potential to affect the
entity's operations." Garcetti v. Ceballos, 547 U.S. 410,418
(2006).
The court "must determine first, based on 'the
content, form, and context of [the] given statement, as
revealed by the whole record,' ... whether the public
employee was speaking 'as a citizen upon matters of public
concern."' Pereira v. Co7:1missioner a/Social Services, 432
Mass. 251,256 (2000), quoting Connickv. Myers, 461 U.S.
138, 147-148 (1983).
Sgt. Condez argues that he was speaking as a citizen,
rather than a police officer, when he wrote the letter to the
Select Board. The court agrees. Condez obtained the
photographs, not in the course of police work, but as paii
of his computer-repair business. His letter did not contain
any reference to his status as a police officer; nor did it
request any criminal prosecution or other law enforcement
action, such as reporting the matter to the Department of
Children and Families. Instead, he wrote that he was
sharing the photographs "with the Select Board in their
role as Police Commissioners and based on their duty to
supervise the Chief of Police." He warned of "serious
liability for the Town" and adverse public reaction. These
concerns are civil and administrative matters, They are not
120

peculiarly related to Sgt. Condez' employment as a police
officer. They are the kind of concerns that any citizen police officer or not - might articulate to the town's
governing body if allegations of child abuse were made
against the police chief
"To be protected, the speech must [also] be on a
matter of public concern " Waters v. Churchill, 511 U.S.
661,668 (1994), Pereira v. Commissioner of Social Services,
432 Mass. 251, 259 (2000) ("the First Amendment's
protection against adverse personnel decisions extends only
to speech on matters of public concern,") "Speech involves
matters of public concern 'when it can "be fairly considered
as relating to any matter of political, social, or other
concern to the community," or when it "is a subject of
legitimate news interest; that is, a subject of general
interest and of value and concern to the public."' ... The
inquiry turns on the 'content, form, and context' of the
speech." Lane v. Franks,_ U.S._,_, 134 S.Ct. 2369, 2380
(2014).
If the photographs taken from Chief Lee's laptop
actually constituted "evidence of abuse or sexual
exploitation of a child," as suggested in Sgt. Condez' letter,
the topic would undoubtedly be a matter of public concern;
but they did not. The photographs merely show Chief
Lee's infant son playing in the bath. That is a private
matter; not a public concern. Accordingly, Sgt. Condez'
letter is not protected speech under the First Amendment.
B. G.L. c, 119, § 51A (h)
Sgt. Condez also argues that he is protected from
discipline by the privilege created by the Legislature for
mandated reports of child abuse, The statute provides as
follows:
No employer shall discharge, discriminate or
retaliate against a mandated reporter who, in
good faith, files a report under this section,
testifies or is about to testify in any proceeding
121

involving child abuse or neglect. Any employer
who discharges, discriminates or retaliates
against that mandated reporter shall be liable
to the mandated reporter for treble damages,
costs and attorney's fees.
G.L. c. 119, § 51A (h).
This argument must be rejected for two reasons.
First, the Commission found that Sgt. Condez did not
make his report "in good faith," as required by the statute.
1 The phrase, "good faith," has not been construed by our
appellate courts in the context of this statute. In general,
however, a person is acting in good faith where he is
"[b]ehaving honestly and frankly, without any intent to
defraud or to seek an unconscionable advantage." Black's
Law Dictionary, "Acting in Good Faith" (10 th ed. 2014).
The Commission found that Sgt. Condez made "false
accusations amounting to charges that Chief Lee had
committed a felony, i.e. child abuse, either knowing them to
be false or with reckless disregard and, in addition, made
an effo1i to conceal his actions, all of which were taken with
an ulterior motive to impede the investigation of the
original pending charges being pursued against him."
Decision, p.39. The Commission described Sgt. Condez'
letter to the Select Board as containing "willful,
intemperate and wholly unsubstantiated accusations" that
"were retaliatory." Decision, p. 46. These findings of fact
make it clear that Sgt. Condez did not deliver his letter to
the Select Board "in good faith."
Second, the report was not made to the Department
of Children and Families. The statutory privilege applies to
a mandated reporter who files a report under Section 51A.
Under that section, under applicable circumstances, a
mandated reporter must "file a written report with the
department [of children and families.]" Although he later
filed a report of "neglect" with the Department, Sgt.
Condez' letter alleging abuse was filed with the town's
Select Board.
122

1 The Commission also ruled that the statutory privilege does not apply
because Sgt. Condez did not, in fact, have "reasonable cause to believe"
that the child was abused. That is the standard that triggers the
requirement that a mandated reporter report abuse to the Department
of Children and Families. G.L. c. 119 § 51 A (a). The standard under§ 5
IA (h), which establishes the privilege, is broader. That subsection
merely requires that the report be made ''in good faith." A person who
acts in a good faith but mistaken belief that the facts constitute
"reasonable cause" to believe a child is being abused would be covered
by the privilege. The fact that Sgt. Condez lacked "reasonable cause to
believe" that the child was abused does not necessarily preclude
application of the privilege.

123

Sgt. Condez argues that his letter to the Select Board
qualifies as a report to the Department under the following
provision:
If a mandated reporter is a member of the
staff of a medical or other public or private
institution, school or facility, the mandated
reporter may instead notify the person or
designated agent in charge of such institution,
school or facility who shall become responsible
for notifying the department in the manner
required by this section.
G.L. c. 119, § 51A (a).
Whether Sgt. Condez' letter to the Select Board
qualifies as a report of abuse by a mandated reporter under
this provision is a mixed question of law and fact. The legal
question is whether the Select Board qualifies as a "person
... in charge of [a public or private] institution, school or
facility ... responsible for notifying the department. ..." Id.
The factual question is whether Sgt. Condez sent his letter
in lieu of a direct report to the Department.
The terms "institution" and "facility" are not defined
in the statute or Department regulations. Still, their
meaning can be adduced by the Legislature's use of those
terms in other parts of the statute and in the Department's
use of the terms in its regulations. The statutory definition
of "mandated reporter" uses the term, "facility," to mean a
place where children are cared for or receive services, i.e.
"mandated reporter" includes a "person paid to care for or
work with a child in any public or private facility...." G.L.
c. 119, § 21. The Department's regulations use the terms,
"institution" and "facility interchangeably and in the sense
of an organization that provides care or services to children.
For example, "institutional abuse" is defined as "abuse or
neglect which occurs in any facility for children, including
but not limited to group homes, residential or public or
private schools, hospitals, detention and treatment
facilities, family foster care homes, group day care centers,
124

and family day care homes." 110 CMR 2.00. Police
departments are not primarily engaged in taking care of
children, although that is an incidental part of police
activities. The court therefore concludes that a municipal
police department is not an "institution" or "facility" as
those terms are used in G.L. c. 119, § 51A (a).
Likewise, the Commission was warranted in
concluding that the purpose of the letter was not to serve as
a mandated report of child abuse under Section 51A but
rather as an attempt to "throw sand in the gears of the
pending investigation of Sgt. Condez' own alleged
misconduct." Decision, p. 50. The conclusion that the letter
did not serve as a substitute for a report of child abuse
directly to the Department is supported by the fact that the
letter never mentions the Department and does not indicate
in any way that Sgt. Condez expected the Select Board to
forward the letter to the Department. Further, the
argument that Sgt. Condez used the letter to the Select
Board as a substitute for a direct report to the Department
is contradicted by the fact that Sgt. Condez filed a direct
report with the Department about the photographs less
than thirty days after his letter to the Select Board. If Sgt.
Condez sent the letter as a report in fulfillment of his duty
under the statute, there would be no need to make a
second, direct report to the Department.
Accordingly, Sgt. Condez was not privileged to send
the letter to the Select Board under G.L. c, 119, § 51A (h).
C. Uncharged Misconduct
Sgt. Condez argues that the Commission erred
because it decided to terminate his employment based on
uncharged misconduct.
"Chapter 31, § 41, restricts the ability of an
appointing authority to remove a tenured civil service
employee. An employee cannot be laid off except for 'just
cause.' The commission's task is to determine, after a
hearing, whether the appointing authority has sustained its
burden of proving by a fair preponderance of the evidence
125

that there was just cause for the action it took.... In
attempting to show just cause, the appointing authority can
rely only on those reasons for layoff that it gave to the
employee in writing," Gloucester v. Civil Service
Commission, 408 Mass. 292, 298 (1990).
Sgt. Condez argues that Charge 9 in the notice
given to him "solely asserts" misconduct in sending the
letter to the Select Board; whereas the Commission
terminated his employment for "destroying evidence and/or
making the subsequent 51A report to DCF," Plaintiff's
Memorandum, pp. 17-18.
Sgt. Condez is correct that the notice alleged
misconduct only in sending the letter to the Select Board,
not in destroying evidence or filing a later report of abuse
with the Department of Children and Families. The notice
includes the following "specification" for Charge 9:
In his June 5, 2014 submission to the Town of
Dartmouth Select Board Sergeant Frank
Condez made baseless accusations of a
scurrilous nature against the Chief of Police
Timothy Lee, claiming that Chief Lee engaged
in deviant sexual criminal behavior with his
own child and suggesting there were other
"victims," with the additional insinuation that
the matter could become public, Condez did so
with the motive to embarrass the Chief of
Police and impede Condez' own disciplinary
hearing. These actions involved immoral,
improper and intemperate conduct,
constituting Conduct Unbecoming an Officer
in violation of the Dartmouth Police Rules and
Regulations.
Administrative Record, Vol. II, pp. 643-644.

126

The written decision adopted by the Commission
mischaracterizes the charge as including both the letter to
the Select Board and subsequent conduct:
Dartmouth charged that Sgt. Condez's June 5,
2014 letter to the Dartmouth Select Board,
and his subsequent actions in furtherance of
the assertions made in that letter, also
violated General Order 670.00, prohibiting
"Conduct Unbecoming an Officer." Here,
Dartmouth is on solid ground. It is hard to
imagine behavior that comes any closer to the
intent of General Order 670.00 than does Sgt.
Condez's willful, intemperate and wholly
.unsubstantiated accusations against Chief
Lee of felonious conduct by alleging, in what
amounts to a public accusation of child neglect
and sexual exploitation by Chief Lee of his
only, wholly innocent son. I conclude that Sgt.
Condez's accusations amount to conduct
unbecoming an officer. I also find that his
accusations were retaliatory. Finally, I
conclude that Sgt. Condez repeatedly lied,
misled, concealed and destroyed evidence in
order to further his unbecoming and
retaliatory behavior.
Decision, p. 46 (emphasis Supplied).
The Commission essentially decided that the town
had proven both the charge specified in the notice and also
a cover-up of that misconduct. Since the charge alleged in
the notice was proved, just cause existed for discipline. The
finding of additional violations of General Order 670.00 is
unnecessary but does not invalidate the finding of just
cause.
II.

Substantial Evidence

Sgt. Condez also contends that two of the
Commission's findings were not supported by substantial
evidence: (A) Sgt. Condez was motivated by his desire to
127

"throw sand in the gears of the pending investigation"
against him; and (B) Sgt. Condez engaged in conduct
unbecoming a police officer.
A decision of a state agency must be supported by
"substantial evidence." G.L. c. 30A, § 14(7)(e). "Substantial
evidence" is defined as "such evidence as a reasonable mind
might accept as adequate to support a conclusion." G.L. c.
30A, § 1(6).
"Judicial 'review under the substantial evidence standard is
circumscribed.' ... It is a standard of review 'highly
deferential to the agency' In order to be supported by
substantial evidence, an agency conclusion need not be
based upon the 'clear weight' of the evidence or even a
preponderance of the evidence, but rather only upon
'reasonable evidence' i.e., 'such evidence as a reasonable
mind might accept as adequate to support a conclusion,'
after taking into consideration opposing evidence in the
record. G.L. c.30A, §§1(6), 14(8)." Lisbon v. Contributory
Retirement Appeal Board, 41 Mass. App. Ct. 246, 257
(1996) (citations omitted.)
"Under the substantial evidence test, a reviewing
court is not empowered to make a de novo determination of
the facts, to make different credibility choices, or to draw
different inferences from the facts found by the [agency]."
Pyramid Co. v. Architectural Barriers Bd., 403 Mass. 126,
130 (1988) (citations omitted).
A.

Sgt, Condez' Motive

Sgt. Condez contends that the Commission's finding
that his motive in sending the letter to the Select Board
was to delay the pending disciplinary hearing was not
supported by substantial evidence.
The Commission adopted the following finding:
The timing of Sgt. Condez's actions also
illustrates an ulterior motive, coming the day
after he learned that all efforts to keep
128

postponing his disciplinary hearing had been
exhausted. By his own admission, Sgt. Condez
had known of the "disturbing" photographs
and the allegedly potential liability they posed
for some time, claiming he first saw them
when he started to "wipe" his stack of "scratch
drives" in May 2014. Yet he chose to take no
action and did not report the "disturbing"
discovery for another month. I heard no
credible explanation for the unusual
coincidence in timing other than the logical
inference that it was meant to throw sand in
the gears of the pending investigation of Sgt.
Condez's own alleged misconduct and I
conclude that was the primary, and probably
sole, motive for his decision to send the June 5,
2014 letter.
Decision, pp. 49-50.
The Commission contends that Sgt. Condez' motive
based on the circumstances that existed at the time the
letter was sent, including the timing of the letter. Since the
inference was based on facts in evidence, it was a
permissible inference. "A fact may be inferred even though
the relationship between the basic fact and the inferred
fact is not necessary or inescapable, so long as it is
reasonable and possible" Mass. G. Evid, § 301 (b) (2017 ed.)
Sgt. Condez also argues that the Commission's
finding as to his motive is arbitrary and capricious. "A
decision that does not contain ... a factual source [for the
agency's conclusion], along with a reasoned explanation, is
'arbitrary within the meaning of G. L. c. 30A, § 14(7)(g)."'
Eady's Case, 72 Mass. App. Ct. 724726 (2008), quoting
Dalbec 's Case, 69 Mass. App. Ct. 306, 316 (2007). A
decision is arbitrary and capricious if "there is no ground
which 'reasonable [persons] might deem proper' to support
it." FHC Homes of Blackstone, Inc. v. Conservation
Commission of Blackstone, 41 Mass. App. Ct. 681,685
(1996).
129

As the Commission stated in the passage quoted
above, its finding concerning Sgt. Condez' motive was based
on the factual circumstances in which he sent the letter,
including the timing in relation to the pending disciplinary
hearing. The finding was based on facts in evidence and
was reasonable. Therefore, it was not arbitrary or
capricious.
B.

Conduct Unbecoming a Police Officer

Sgt. Condez also challenges the following findings of
the Commission:
Dartmouth has proved the charges of conduct
unbecoming an officer for Sgt. Condez' s
wholly false accusations that Chief Lee was
guilty of a felony, namely, criminal abuse of
his only child. Sgt. Condez showed extreme
lapse of judgment, untruthfulness and
unconscionable retaliatory behavior motived
[sic] by an unfounded personal animus against
Chief Lee and others, all of which is utterly
intolerable in a police officer. Accordingly,
Dartmouth proved just cause for his
termination on those charges against him.
Decision, p. 34.
In particular, he contends that the following findings were
not suppo1ied by substantial evidence: (1) the statements
in his letter were "wholly false;" (2) he engaged in
"unconscionable retaliatory behavior;" and (3) he was
motivated "by an unfounded personal animus against Chief
Lee and others."
Sgt. Condez sent a letter to the Select Board with
two photographs of an infant boy naked in the bathtub. In
one of the photographs, the boy has an indistinct object on
his penis. Sgt. Condez asserted that the photographs were
"possible evidence of abuse or sexual exploitation of a child
by [Chief Lee]." Sgt. Condez wrote that it was "disturbing ...
that someone in a position of public trust would be involved
130

and or condone this type of conduct." He described the
situation as "serious" four times. He twice suggested that
there were additional "victims." He warned of liability of
the town and called for an investigation by an "outside
police agency." Adm. Record, Vol. II, p. 646. Based on the
letter and the photographs, the Commission could
permissibly find that the serious accusations in the letter
were "wholly false" in the sense that they were
unsubstantiated.
The Commission could also permissibly find that Sgt.
Condez' actions were "retaliatory" based on the fact that he
only sent his letter after being denied an additional
continuance of pending disciplinary proceedings. Likewise,
the Commission could permissibly find that Sgt. Condez
was motivated by personal animus against Chief Lee based
on the facts that Chief Lee was in charge of the police
department bringing the charges and the personal nature
of the scandalous and unwarranted attack on Chief Lee.
III.

Severity of the Remedy

Finally, Sgt. Condez contends that his report of child
abuse did not warrant the severe sanction of termination of
employment.
The severity of the punishment is a matter
committed to the sound discretion of the appointing
authority and the Commission. See, Police Commissioner of
Boston v. Civil Service Commission, 39 Mass. App. Ct. 595,
600 (1996). The court may not disturb the choice made by
the agency unless the choice is arbitrary or capricious. As
noted above, a decision is arbitrary and capricious if "there
is no ground which 'reasonable [persons] might deem
proper' to support it." FHC Homes of Blackstone, Inc. v.
Conservation Commission of Blackstone, 41 Mass. App. Ct.
681,685 (1996).
In determining the appropriate disciplinary action,
the Commission took into account the fact that Sgt. Condez
"has performed on many occasions with distinction."
Decision, p. 56. However, the Commission also determined
131

that Sgt. Condez had caused "irreparable damage" to his
own credibility and to the reputation of the police
department. Id. Weighing both factors, the Commission
concluded that termination was the appropriate discipline.
Because that decision was based on a rational view of the
evidence, it was neither arbitrary nor capricious and the
court is required to defer to the Commission's conclusion.
ORDER
In Civil Action No. 1673CV00796, the plaintiffs motion for
judgment on the pleadings (Paper# 14) is DENIED and the
defendants' cross-motion for judgment on the pleadings
(Paper #15) is ALLOWED. Judgment shall enter
AFFIRMING the decision of the Civil Service Commission.
September 23, 2017
Thomas F. McGuire, Jr.
Justice of the Superior Court

132

Supreme Judicial Court for the Commonwealth of
Massachusetts RE: Docket No. FAR-26915
FRANK CONDEZ
vs.
CIVIL SERVICE COMMISSION & others
Bristol Superior Court No.
1673CV00796 A.C. No.
2018-P-0555
NOTICE OF DENIAL OF APPLICATION FOR
FURTHER APPELLATE REVIEW
Please take note that on September 13, 2019, the
application for further appellate review was denied.
Francis V. Kenneally, Clerk
Dated: September 13, 2019
To: Gregory V. Sullivan, Esquire
Robert L. Quinan, Jr., Esquire
Angela L. Linson, Esquire
Robert L. Ciociola, Esquire
Nora Rose Adukonis, Esquire
Leonard H. Kesten, Esquire
Evan C. Ouellette, Esquire

133

